<html>
<title> - U.S. POLICY AND THE OSCE: MAKING GOOD ON COMMITMENTS</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                       U.S. POLICY AND THE OSCE:


                       MAKING GOOD ON COMMITMENTS

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2011

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 112-1-9]
                             
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                            
                             
                             


                   Available via http://www.csce.gov
                   
                            __________________
                   
                    U.S. GOVERNMENT PUBLISHING OFFICE
95-758 PDF                   WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 
                   
                   


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,     BENJAMIN L. CARDIN, Maryland,
Chairman                                Co-Chairman
JOSEPH R. PITTS, Pennsylvania         SHELDON WHITEHOUSE, Rhode Island
ROBERT B. ADERHOLT, Alabama           TOM UDALL, New Mexico
PHIL GINGREY, Georgia                 JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas             RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida            ROGER F. WICKER, Mississippi
LOUISE McINTOSH SLAUGHTER,            SAXBY CHAMBLISS, Georgia
New York                              MARCO RUBIO, Florida
MIKE McINTYRE, North Carolina         KELLY AYOTTE, New Hampshire
STEVE COHEN, Tennessee

                           
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
               MICHAEL C. CAMUNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense
               
               


                                  [ii]
                                  
                                  


                       U.S. POLICY AND THE OSCE:

                       MAKING GOOD ON COMMITMENTS

                              ----------                              

                             July 28, 2011
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Benjamin L. Cardin, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     6

                               WITNESSES

Philip H. Gordon, Assistant Secretary of State for European and 
  Eurasian Affairs, Department of State..........................     3
Michael H. Posner, Assistant Secretary of State for Democracy, 
  Human Rights, and Labor, Department of State...................     6
Alexander Vershbow, Assistant Secretary of Defense for 
  International Security Affairs, Department of Defense..........     8
Dr. Michael Haltzel, Senior Fellow, Center for Transatlantic 
  Relations, Johns Hopkins University (SAIS).....................    18
Catherine Fitzpatrick, Consultant, Jacob Blaustein Institute for 
  the Advancement of Human Rights................................    21

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    30
Prepared statement of Philip H. Gordon...........................    31
Prepared statement of Michael H. Posner..........................    35
Prepared statement of Alexander Vershbow.........................    40
Prepared statement of Dr. Michael Haltzel........................    46




                                 [iii]
                                 

 
                       U.S. POLICY AND THE OSCE:
                       MAKING GOOD ON COMMITMENTS

                              ----------                              


                             July 28, 2011

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 1:30 p.m. in room 210, Cannnon 
House Office Building, Washington, DC, Hon. Christopher H. 
Smith, Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Benjamin L. Cardin, Co-Chairman, Commission on Security and 
Cooperation in Europe.
    Witnesses present: Philip H. Gordon, Assistant Secretary of 
State for European and Eurasian Affairs, Department of State; 
Michael H. Posner, Assistant Secretary of State for Democracy, 
Human Rights, and Labor, Department of State; Alexander 
Vershbow, Assistant Secretary of Defense for International 
Security Affairs, Department of Defense; Dr. Michael Haltzel, 
Senior Fellow, Center for Transatlantic Relations, Johns 
Hopkins University (SAIS); and Catherine Fitzpatrick, 
Consultant, Jacob Blaustein Institute for the Advancement of 
Human Rights.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order, and good 
afternoon, everybody. Thank you for being here for this very 
important Commission on Security and Cooperation in Europe 
hearing. I'd like to welcome our distinguished witnesses. It is 
not often that we have the honor of hearing from three 
assistant secretaries at the same time, including two who also 
serve as Helsinki Commissioners, so you really should be up 
here--[chuckles]--asking the questions. But thank you for being 
here and thank you for your work on behalf of human rights and 
all of the three baskets that make up the Helsinki Final Act.
    Today we'll explore the U.S. policy towards the 
Organization for Security and Cooperation in Europe, a unique 
intergovernmental organization that incorporates human rights 
and economic development into its comprehensive concept of 
security. Unfortunately, over the past several years, OSCE 
countries with poor human rights records have been able to 
thwart some of the organization's work on these issues.
    Last December at the Astana Summit, the OSCE's first summit 
since 1990, OSCE states failed to reach consensus on an action 
plan laying out priorities for the coming years. Yet, the OSCE 
needs to continue to focus on fundamental human rights issues. 
This is its heritage, the reason it was created in the 1970s. 
It must not allow itself to be sidetracked by Russia or other 
un- or semi-democratic states which argue that the organization 
should look only at positive examples of best practices or that 
distract the OSCE from its work by insisting on lengthy 
discussions of OSCE reform.
    Likewise, our own government must raise the priority given 
to human rights and humanitarian concerns, from supporting 
oppressed people of Belarus, turning back the trend to restrict 
Internet and media freedoms, supporting democracy in Kyrgyzstan 
and democratic activists throughout all of central Asia, making 
sure the OSCE partnership program is used to generally promote 
human rights for oppressed minorities; and as for the Copts in 
Egypt, helping OSCE countries to address the disturbing and 
potential tragic demographic trends found in almost all of the 
member states. All of these have been the subject of recent 
commission hearings and as we look forward to working with the 
executive branch on each and every one of these issues.
    One issue I'd like to particularly raise here is the 
international child abduction issue. I note parenthetically--
and unfortunately due to scheduling I will have to be absent 
for most of this hearing--but at 2:00 I'll be hearing, as 
chairman of the Global Health, Global Human Rights Africa 
Subcommittee from Susan Jacobs and others about the efforts to 
bring children home who have been abducted throughout the 
world.
    The Hague Treaty is now some 30 years old. And 
unfortunately, much of its implementing processes have been 
thwarted or mitigated by countries, especially government 
authorities that have refused to take seriously their 
obligations; and the hearing will focus on many of these 
countries, with a particular emphasis on Japan. So regrettably 
I will have to leave for that. Again, this hearing was actually 
put on after that hearing.
    I would also point out that at the OSCE Parliamentary 
Assembly in Belgrade earlier this month, there was a resolution 
that we had authored as a commission to take up the issue of 
international parental child abductions by promoting better 
implementation of the Hague convention. My hope is that at the 
OSCE Ministerial in Vilnius this year we can look at standards 
for OSCE states to fill the gaps in the convention's 
implementation. Like I said, 30 years after its signing there 
are huge gaps that must be looked at.
    I'd like to also say that--and I mentioned this to 
Assistant Secretary Posner just a moment ago--but last week we 
held a very disturbing hearing here in this room and heard from 
three distinguished witnesses including Michelle Clark, who all 
of you will recall was the director of OSCE trafficking work. 
She did a landmark report on partner-country Egypt and focused 
on the issue of the abduction and the forced marriages of 
Coptic women, often starting as early as 14 and 15 years of 
age, who are then forced into Islam and then after that forced 
to take up a Muslim husband. If that isn't a definition of 
trafficking, I don't know what is.
    This has been reported on, as I think all of you know, in 
the past in a cursory way, perhaps, by many human rights 
reports. But she said--and she said it with emphasis--that the 
idea that it's a mere allegation must be stricken from the 
record, that this is now a common practice. And she estimated--
and she did on-the-ground investigations and, frankly, she 
actually told us she would going back to do more on-the-ground 
human rights investigations--that thousands of Coptic girls, 
every year now, are being abducted and forced into Muslim 
marriages, obviously against their will, against the will of 
their families. And drugs and rape are very often a means to 
expedite that conversion and that marriage--an absolute 
horrific situation that has gotten scant coverage.
    I plan--or actually offered an amendment to the foreign 
relations bill when it was marked up last week in committee 
condemning this egregious practice. And many of the members 
wanted more information after the markup, which we are 
providing and have provided. And I do think it's an issue we 
need to engage robustly.
    I'd like to introduce our first panel, beginning first with 
Dr. Philip Gordon who serves as Assistant Secretary of State 
for European and Eurasian affairs. Prior to assuming his 
position he was a senior fellow at The Brookings Institution. 
He also served as Director for European Affairs at the National 
Security Council under President Clinton.
    Michael Posner serves as Assistant Secretary of State for 
Democracy, Human Rights and Labor. And prior to his current 
position he was executive director and then president of Human 
Rights First. And I would just say personally I've worked with 
him for decades and it's great to have him before the 
Commission. Before joining Human Rights First, he practiced law 
in Chicago, and he also worked for the Lawyers Committee for 
Human Rights, which obviously became Human Rights First.
    Then we'll hear from Ambassador Alexander Vershbow who 
serves as Assistant Secretary of Defense for International 
Security Affairs. A career foreign service officer, he has 
served as U.S. Ambassador to NATO, the Russian Federation and 
the Republic of Korea. He's held numerous senior-level foreign 
policy positions principally focused on the former Soviet Union 
and the Balkans.
    And so I'd like to now ask our first panelist, Dr. Gordon, 
if he would proceed.

PHILIP H. GORDON, ASSISTANT SECRETARY OF STATE FOR EUROPEAN AND 
             EURASIAN AFFAIRS, DEPARTMENT OF STATE

    Sec. Gordon. Thank you very much, Mr. Chairman. I'm honored 
to be here, and appreciate the opportunity to talk about our 
agenda for the OSCE. I am particularly pleased to be sitting 
here with my friends and close colleagues, Mike Posner and 
Sandy Vershbow. I'd like to focus my remarks today on the OSCE 
since the December 2010 Astana Summit, which I attended along 
with Secretary Clinton.
    And I'd like to begin by looking at our core foreign policy 
goals for the organization, reviewing our achievements at 
Astana and looking forward to the OSCE's Ministerial in Vilnius 
this December. I've submitted a long version for the record, 
and would like to just summarize here if I may.
    Mr. Smith. Without objection. Your full statement and that 
of our distinguished witnesses will be made a part of the 
record.
    Sec. Gordon. Thank you, Mr. Chairman.
    Our approach to the OSCE rests firmly on the foundation of 
relations with Europe and Eurasia as a whole. Europe remains a 
key national priority for the United States for the simple 
reason that nowhere does the United States have better, more 
valuable partners than in Europe. The United States and Europe 
share common values, our economies are intertwined, and our 
militaries work together to address common security challenges.
    U.S. bilateral engagement with Europe is complemented by 
key multilateral institutions, including the OSCE. Through the 
OSCE we engage on such U.S. priorities as advancing human 
rights and fundamental freedoms, building democratic 
institutions throughout the OSCE area, and advancing good 
governance in the economic and environmental spheres, and 
military transparency. In this period of tight budgets, 
multilateral approaches often present an effective alternative 
to unilateral engagement.
    Today, as you said, Mr. Chairman, the principles and 
commitments embodied by the OSCE face some serious challenges 
both from the inside and outside of the organization. From 
within, there is an uneven application of the Helsinki 
principles. Regional crises and transnational threats are 
proliferating. Efforts to resolve the protracted conflicts, for 
example, in Georgia, Moldova and Nagorno-Karabakh continue to 
face very frustrating obstacles.
    To take another example, Russia's determination to limit 
the role of the OSCE in Georgia has diminished possibilities 
for international engagement in this region where transparency 
and confidence building are sorely needed. Problems like these 
make headlines, but they offer only a partial picture of the 
OSCE, because the OSCE has also made tremendous contributions 
toward advancing democratic prosperity and stability throughout 
Europe and Eurasia. Although it is at times stymied by a lack 
of political will, the OSCE nonetheless remains uniquely 
positioned to build confidence through military transparency, 
promote good governance and protect human rights and 
fundamental freedoms in Europe and Eurasia.
    At the Astana Summit last December, which was the first 
OSCE summit in 11 years, the 56 participating states issued the 
Astana Commemorative Declaration, which was a stronger 
affirmation of the Helsinki principles and commitments of the 
entire OSCE akey (ph) including, for the very first time, an 
explicit statement that human rights situations in 
participating states are matters of, quote, ``direct and 
legitimate concern to all.'' Because of disagreements over the 
protracted conflicts, we were indeed unable to get consensus on 
an action plan at Astana. But the final document tasks future 
chairmanships to develop a plan to address a range of common 
challenges.
    Since the summit, we've been working with the Lithuanian 
chairmanship as new challenges present themselves. Among these 
has been Belarus. After a flawed presidential election, the 
Government of Belarus launched a brutal crackdown against the 
opposition and civil society following, and closed the OSCE 
office in Minsk. Through the invocation of the Moscow Mechanism 
and other efforts, we are working to hold the Government of 
Belarus accountable for its failure to protect human rights and 
fundamental freedoms.
    In close consultation with Senator Cardin and others on 
this Committee, we have also taken concrete actions to address 
the tragic case of Sergei Magnitsky, a lawyer who died in pre-
trial detention in Russia. We've also worked with the 
chairmanship to support greater OSCE assistance for North 
Africa. For example, ODIHR, at the request of Egyptian 
activists, is already holding a workshop for Egyptian civil 
society on international standards of election observation in 
advance of Egypt's November parliamentary elections.
    Looking forward to the December OSCE Ministerial in 
Vilnius, the United States is working with our partners to 
achieve results in all three dimensions. Very briefly--in 
political-military dimension, we want to agree on a substantial 
update of the OSCE central arms control agreement, the Vienna 
Document, which we hope will be reissued at Vilnius for the 
first time since 1999. In the economic-environmental dimension, 
we want to endorse greater economic transparency, good 
governance and anti-corruption measures, as well as work with 
the special representative on gender issues to empower women in 
the economic sphere. In the human dimension, we hope to take 
the Helsinki Final Act into the digital age with a decision 
that would explicitly acknowledge that human rights and 
fundamental freedoms can apply to online activity as they do to 
offline activity. We want to reaffirm and strengthen 
government's commitment to the protection of journalists.
    We all know that a consensus-based organization with 56 
participating states sometimes moves in frustratingly small 
steps. The issues the OSCE faces can seem intractable, but 
exchanging words is better than exchanging bullets, which 
unfortunately we have experienced in the OSCE space in the last 
three years. The OSCE has not yet lived up to its full 
potential, but the OSCE does good and vital work and remains 
essential for protecting human rights, promoting stability and 
spreading democracy throughout the region.
    The Helsinki Commission; you, Mr. Chairman; the 
Commissioners and the experts on your staff play a vital role 
ensuring that the participating states keep the promises made 
at Helsinki. With your support, the United States will continue 
to play a leading role in the OSCE to strengthen, build upon 
the progress participating states have made over the past 35 
years, and bring us closer to a truly stable, secure and 
prosperous OSCE region. Thank you.
    Mr. Smith. Gordon, thank you very much for your testimony. 
To note, there are eight consecutive votes on the floor right 
now. I have 30 seconds to get to the floor. Co-Chairman Ben 
Cardin will be here momentarily, but until then we will stand 
in, momentarily, recess. Again, I apologize to our witnesses.

    [Recess.]

 HON. BENJAMIN L. CARDIN, CO-CHAIRMAN, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. The Commission will come back to order. I 
apologize; as I think Chairman Smith has indicated, the House 
has series of votes. The Senate's waiting on the House. We may 
be waiting a long time from what I understand. So we're sort of 
in that position. Obviously the timing of this hearing was--we 
didn't anticipate that we would be in the midst of these 
negotiations concerning the budget. So we apologize to all of 
our witnesses. I understand that Secretary Gordon, you've 
already completed your opening statement, so we'll go to 
Secretary Posner.

MICHAEL H. POSNER, ASSISTANT SECRETARY OF STATE FOR DEMOCRACY, 
          HUMAN RIGHTS, AND LABOR, DEPARTMENT OF STATE

    Sec. Posner. Thank you, Senator Cardin. I ask that my 
written testimony be submitted to the record.
    Mr. Cardin. Without objection, all of your statements will 
be included in the record.
    Sec. Posner. Great. First, I want to thank you for holding 
this important hearing at this time. And I want to focus my 
brief remarks on the human rights and human dimension aspect of 
the OSCE.
    First, for us, the OSCE is an important forum for raising 
human rights issues in individual countries in concern. And in 
the written testimony, I focus in particular on Belarus, Russia 
and Uzbekistan. As Assistant Secretary Gordon said with respect 
to Belarus, we see a refusal to extend the mandate of the OSCE 
office in Minsk, its hindering of the Moscow Mechanism by not 
allowing a special rapporteur into the country, and now their 
resistance to joining consensus on the agenda for the human 
dimension implementation meeting in Warsaw. But by its 
obstructionist behavior, Belarus only draws more attention to 
its poor human rights record.
    We also have been and will continue to press for human 
rights with respect to Russia. We've spoken out repeatedly at 
the OSCE Permanent Council and in other OSCE fora about the--
about the many unresolved cases, like the murder of journalist 
Paul Klebnikov, human rights activist Natalya Estemirova, and 
the corruption and impunity as exemplified in the tragic case 
of Sergei Magnitsky--Senator Cardin, a case in which you've 
played such an important role in drawing international 
attention, and we thank you for that--also restrictions on free 
assembly for groups like Strategy-31.
    For us, the OSCE is particularly important, though, in the 
five Central Asian states, which don't really have another 
regional forum. And so the comprehensive security we seek in 
the OSCE region, and in Central Asia particularly, will remain 
elusive until a range of serious human rights problems are 
addressed. There is a pattern, for example, of serious human 
rights violations in Uzbekistan. We've consistently raised our 
concerns in cases like that of Dilmurod Sayid, a journalist who 
was imprisoned for writing about corruption; Maxim Popov, who 
remains incarcerated for working on AIDS issues; and we 
continue to advocate for fair treatment and due process in 
these and similar cases.
    We are committed to working with civil society in 
Uzbekistan and other Central Asian countries to advance 
democratic reforms at a moment where those issues are extremely 
difficult. But sometimes the engagement does yield results. And 
I want to point in a positive way to the actions by the 
Government of Kyrgyzstan, which has decriminalized libel, an 
issue in which the OSCE representative on freedom of the media 
has persistently focused.
    A second broad point I want to make is that the OSCE 
remains a pioneering process relevant in today's world. It's a 
comprehensive approach to security, to human values--which are 
at the core of the Helsinki process--and there is also a 
recognition of the vital role of civil society. The OSCE as an 
institution and the civil society activists associated with the 
Helsinki movement contribute expertise to our partnership with 
Mediterranean states now undergoing transformations.
    Third, and relating to that same point, the Helsinki 
process must continue to champion citizen activism. Secretary 
Clinton last summer gave an important speech in Krakow, Poland, 
talking about the environment in which NGOs--which civil 
society are now being restricted by governments who are unhappy 
with their actions--the OSCE, through its engagement of civil 
society, reinforces our strategy of supporting citizen 
activism. In mid-August, my bureau will be reviewing proposals 
for a new $500,000 program to create a 
demand-driven, virtual network of human rights and democracy 
activists in the OSCE region. We're calling it Helsinki 2.0. 
This will help extend Helsinki's human dimension and the legacy 
of citizen involvement.
    Last point is that I think it's important for us to send a 
clear message from Vilnius on Internet freedom. I appreciate 
the Commission holding a hearing on that subject several weeks 
ago. We applaud Lithuania for making media freedom both via old 
and new technologies key themes of their chairmanship, and 
we're grateful for the tireless effort of the OSCE permanent 
representative on freedom of the media, Dunja Mijatovic.
    As Ambassador Gordon and I have both noted in our written 
testimonies, the U.S. Government is committed to fundamental 
freedoms in the digital age, and the Astana summit ended 
without adoption of a plan. We intend to renew our efforts in 
the Vilnius Ministerial.
    In conclusion, Mr. Chairman, I want to say that we are 
committed to a Europe that is whole, free and at peace, Europe 
and Eurasia coming together in an integrated way. And there 
can't be lasting security in this region until human rights and 
fundamental freedoms can be fully exercised by all of the 
people within the OSCE region.
    Again, I want to thank you for holding these hearings and 
for your own personal commitment to these issues.
    Mr. Cardin. Well, thank you for your testimony and thank 
for your participation on the Commission. Secretary Vershbow?

    ALEXANDER VERSHBOW, ASSISTANT SECRETARY OF DEFENSE FOR 
     INTERNATIONAL SECURITY AFFAIRS, DEPARTMENT OF DEFENSE

    Sec. Vershbow. Thank you, Senator Cardin. Thanks to you and 
to Chairman Smith for inviting me to testify about the 
Organization for Security and Cooperation in Europe and our 
goals in the runup to the Vilnius Ministerial meeting in 
December. And I'm very honored to associate myself with this 
Commission and its achievements over the decades. Like my 
colleagues, I have a longer statement that I'd like to submit 
for the record.
    Mr. Cardin. And it will be.
    Sec. Vershbow. But I'll just summarize some of the main 
points.
    The OSCE has three attributes that make it unique. It has a 
vast geographic scope; it has a three-basket approach to 
security, encompassing human rights, economic development, as 
well as military security that is still relevant today; and it 
has an extraordinary legacy, having played a critical role both 
in supporting and inspiring the forces of democracy and freedom 
behind the Iron Curtain during the Cold War and then bringing 
order during Europe's tumultuous political transitions of the 
early 1990s.
    Throughout its history, the OSCE has adapted to new 
challenges and changes in the security environment. And in 
keeping with this tradition, it must continue to adapt to face 
the challenges of the 21st century.
    As we've heard, last December, the OSCE held its first 
summit in Astana--the first summit since 1999. At the summit, 
we learned that the achievements of the OSCE cannot be taken 
for granted. The effort to produce an action plan for 2011 
foundered over fundamental disagreements on conventional arms 
control and the unresolved conflicts.
    Fortunately, due in no small part to the efforts of my 
friend Phil Gordon, the member states did succeed in producing 
the Astana Commemorative Declaration which recommitted all 56 
participating states to the Helsinki principles and to 
revitalizing the 
political-military dimension of European security.
    And I'd like to focus on what the administration would like 
to accomplish in this area by the time of the Ministerial in 
December, with particular attention to the three most important 
parts of the conventional arms control regime: The 1999 Vienna 
Document, the Open Skies Treaty, and the CFE Treaty.
    OSCE is engaged in an intensive effort to update the Vienna 
Document for the first time since 1999. So far, the only 
changes that have been agreed are administrative in nature.
    One substantive proposal that we believe would be critical 
to making the update a success is to lower the force thresholds 
for notification of military maneuvers, a subject that's 
central to the original intention of the Vienna document. So 
far, only 35 of the 56 participating states have agreed to this 
proposal, but we think it would better reduce force sizes in 
Europe and it would send a clear signal that OSCE is serious 
about modernizing military transparency and security in Europe 
even though this is not the only updating that should be done, 
either before or beyond Vilnius.
    So we hope to have a deeper discussion with our OSCE 
partners on a range of measures that would be necessary to 
improve the security of all participating states. With military 
budgets under pressure, we think that the Vienna Document must 
continue to evolve to keep pace with the transformations 
underway across Europe's militaries.
    On Open Skies, the 34 states party to the treaty have flown 
more than 700 aerial observation flights since the treaty 
entered into force in 2002. The ability of any party to overfly 
any part of the territory of every other party is actually 
quite extraordinary. And, indeed, the United States and Russia 
both used Open Skies to verify the New START treaty. We're 
seeking to recommit the United States to the treaty by 
increasing the number of flights in which we participate each 
year and by upgrading our sensors to digital. While many states 
are scaling back their participation due to budget cuts, we 
note that Russia has renewed its commitment by purchasing new 
Open Skies aircraft, so we look forward to the continued 
operation of this landmark treaty.
    The news on conventional armed forces in Europe, the CFE 
Treaty, is less encouraging. As you know, the CFE impasse began 
with Russia's December 2007 suspension of its compliance with 
the treaty. Our efforts, led by Ambassador Victoria Nuland, to 
conclude a framework agreement as the starting point of 
negotiations to modernize the treaty have foundered on two main 
issues: the right of states to choose whether or not to allow 
foreign forces to be stationed on their sovereign territory, 
and providing transparency among all parties regarding their 
current military posture.
    Currently, the United States is consulting with the other 
parties to decide the way forward while continuing to encourage 
Moscow to reconsider its position. But as NATO said at the 
Lisbon summit last November, this situation in which 29 parties 
implement the treaty while one does not cannot continue 
indefinitely.
    While the future of CFE remains uncertain, we remain 
committed to conventional arms control and military 
transparency in Europe. And while the CFE treaty can't be 
replaced, we'll continue to work through the OSCE to advance 
these objectives by modernizing the Vienna Document and the 
Open Skies Treaty.
    We also seek to use the leverage of OSCE's diverse 
membership in trying to address the unresolved conflicts. And 
we hope through cooperative efforts to resolve them.
    Sadly, we've seen little sign of progress on resolving the 
conflict between Georgia and Russia. Talks do continue in 
Vienna and in Geneva on the possibility of an OSCE team that 
could have access to all of the territory of Georgia within its 
internationally recognized borders, but Russia has yet to 
agree.
    Our position remains unchanged. The United States continues 
to support Georgia's territorial integrity and sovereignty 
within its internationally recognized borders, and we will 
maintain our support for international efforts to find a 
peaceful resolution to the dispute over Abkhazia and South 
Ossetia. Russia needs to abide by its ceasefire arrangements 
and take steps that promote stability in the region.
    The OSCE continues to play an important role in supporting 
a peaceful resolution of the dispute over Transdniestria 
through the ``five plus two'' talks, and the United States 
remains closely engaged with our OSCE Minsk Group co-chairs, 
Russia and France, in supporting efforts to promote a peaceful 
settlement between Armenia and Azerbaijan over the Nagorno-
Karabakh conflict.
    Unfortunately, an attempt last month to reach a 
breakthrough failed and tensions along the line of contact are 
increasing. But with the parties' inability to finalize the 
Madrid basic principles to resolve the conflict, we remain at a 
dangerous stalemate, and prospects for progress remain 
uncertain.
    Now, the OSCE is also a forerunner among regional 
organizations in addressing emerging threats, such as 
preventing nuclear proliferation to nonstate actors, the 
control of small arms and light weapons, the promotion of 
cybersecurity, and enhancing border security in Central Asia.
    On nonproliferation, OSCE continues to work towards full 
implementation of U.N. Security Council Resolution 1540. OSCE 
is setting norms for its members on nuclear nonproliferation by 
hosting specialized workshops and specialized tools for 
implementation.
    OSCE is a vital forum for cooperation on reducing the 
threat posed by small arms and light weapons. It's facilitated 
cooperation among participating states in reducing trafficking, 
securing existing stocks, and eliminating excess small arms and 
light weapons and related materials since 1999. In March and 
July of this year, DOD participated in OSCE-led visits to 
Kyrgyzstan, and we're now working to ensure that that country's 
man-portable air-defense systems, or MANPADS--and we're also 
coordinating OSCE efforts to secure and destroy large 
stockpiles of hazardous conventional ammunition.
    On cybersecurity, OSCE hosted an important conference to 
explore potential roles for the organization, which included 
not only participating states, partners, and international 
organizations but the European Commission, Japan, and NATO. In 
the run-up to the Vilnius ministerial, the Pentagon will 
continue to support State 
Department-led discussions on developing cyber confidence-
building mechanisms in the OSCE to protect our vital interests.
    We also have been working through OSCE to promote a stable, 
secure, and prosperous Central Asia by improving border 
security and working to combat illegal drug trafficking and 
other forms of proliferation across the region. We believe OSCE 
can do more in Afghanistan. The secretariat has proposed 16 
projects to enhance Afghan border security with an emphasis on 
building Afghan capacity. These are supportive of the 
Afghanistan government's national development strategy. So far, 
only a few have been implemented and we would like to see more 
progress between now and Vilnius on these very important 
projects.
    So, to conclude, Senator, in 1970, it was unlikely that 
NATO and the Warsaw Pact would hand each other their order of 
battle, publish advance warning of and invite observers to 
their large military exercises, conduct thousands of intrusive 
inspections, and fly hundreds of uncontested reconnaissance 
sorties over each other's territories. But now, we take these 
measures for granted.
    The OSCE, aided by this Commission, remains an important 
tool to prevent future conflicts, to resolve the remaining 
conflicts in Eurasia, to address new threats as they emerge. We 
hope to be a bit further along by this year in projecting the 
peace and security of OSCE to other areas of instability, but 
clearly much more work remains to be done.
    I hope that by the time of the Vilnius meeting in December, 
the Astana summit will, ultimately, be seen as a turning point 
in reinvigorating OSCE's security dimension and moving it 
boldly into the 21st century.
    Thank you very much.
    Mr. Cardin. Well, thank you for that comprehensive 
presentation. I thank all three of you.
    It's clear to me that if the Vilnius Ministerial is going 
to be successful, it's going to require a great deal of 
preparation work by the United States. We saw a year ago with 
the Astana preparations--were not up to what we wanted it to 
be, and I agree with the observations; Secretary Gordon, but 
for your work and the U.S. work, I think that would've been a 
difficult time. I think we pulled out at the end some important 
work that was done in Astana. And I really do applaud the U.S. 
for your leadership there.
    We can't chance that again. I think we need better 
preparation moving in to the Ministerial. Of course, this is 
not a summit, so the expectations are nowhere near as high, but 
it still, I think, requires us--it's a once-a-year opportunity. 
And I listen to your testimony, and I think you do have the 
framework for some very important progress being made following 
up on Astana and Vilnius. And I just encourage you to work with 
our Commission here so that we can try to reinforce what you're 
doing with the work of our Commission.
    I want to just follow up, if I might--Secretary Vershbow, 
that you pointed out: the strength of the OSCE, its 
geographical scope, the fact that it has the three baskets that 
are interwoven together, and its legacy. And we can all point 
with pride a lot of what has been done as a result of the OSCE.
    On the geographical side, since its inception, of course, 
the United States and Russia were equal partners in an 
organization in Europe which gave it a unique opportunity for 
the relationship between the United States and Russia. The 
breakup of the Soviet Union, of course, now gives us 
opportunities in Central Asia that we did not have before, and 
that's still unclear as to how we're going to be using that 
opportunity to advance Central Asia.
    And now, there is an interest in expanding the OSCE in the 
Mediterranean beyond just our partner states, in using the 
framework--it was Max Kampelman who originally suggested that 
we create a separate OSCE for the Mediterranean. Later, he 
said, well, it would take too long to do that; why don't we 
just try to expand the Middle East into OSCE? And we've been 
doing that. We've been doing that through the partnership 
status. There is some talk within the Parliamentary Assembly to 
try to give the Mediterranean partners higher standing. I would 
be interested in the U.S. pursuing additional partner states in 
the Middle East as well as increased participation in the OSCE 
for the partner states.
    So I guess if you could--and I would like to hear all three 
of you--first, how you see us using the OSCE as it relates to 
Russia, which I think is a real challenge. We have some of the 
real experts here on Russia, so what should we be looking to as 
far as the future of the OSCE as it relates to Russia? Central 
Asia, sort of--[inaudible]
    Sec. Gordon. Senator, I'd be happy to begin and pick up on 
a couple of those. I'm sure my colleagues will follow up.
    First, if I might--and thank you for your kind words about 
our work on the road to Astana--I would note that your comments 
about the difficulty of Astana actually go hand in hand with 
your comments about the strength of OSCE, the strength of the 
OSCE being that it works in all three dimensions, that there 
are 56 participating states, its geography covers a broad swath 
of issues; that gives it certain advantages, everybody's 
involved and it's comprehensive.
    At the same time, it creates challenges in advancing the 
agenda that we saw in Astana, and we have no illusions about--
on the road to Vilnius and beyond. It is just something that we 
have to live with. With a strong chairmanship in Lithuania and 
our own work and the support of the Commission, we hope to--
despite these sort of structural challenges--make real progress 
in Vilnius.
    On the work in other areas, let me just start with the 
Mediterranean. We do believe that there is a role for the OSCE 
and the Mediterranean, one that it is indeed already playing. 
Even short of an OSCE for the Mediterranean, which, as you 
suggest, may be a bridge too far in the short term, the OSCE is 
already working with neighboring states in the Mediterranean. I 
think I mentioned in my testimony the workshop on elections in 
Egypt that just took place in the past couple of weeks. A 
number of OSCE members from Central Europe have had workshops 
on democratic transitions, which is something also the OSCE can 
help with. With years or even decades of experience of trying 
to support rule of law, democracy, free market economies in the 
OSCE space, it can be useful to those Mediterranean countries 
that are seeking that transition as well.
    And I guess I would say a similar thing about Central Asia, 
where the OSCE is already hard at work trying to do that--
again, facing many challenges but trying to bring the lessons 
of what it has learned in decades of democratic support in 
Europe and Eurasia to Central Asia as well, and that will be 
another theme in Vilnius.
    Finally, on Russia: Once again, it's a consensus 
organization. As Ambassador Vershbow said, we have had 
significant differences with Russia on some of the key issues 
we face, including in the area of arms control. But we can't 
move forward without Russia. And we are committed to working 
with the Russians as we need to in trying to strengthen the 
organization and take advantage of one of its most important 
voices in the full range of issues.
    Sec. Posner. If I can just add a couple thoughts to that: I 
think, to share Phil's observation, clearly, in places like 
Tunisia, Egypt, hopefully in Libya, there is a desire to engage 
with European partners and European countries that have gone 
through political transformations moving towards democracy. If 
the OSCE can be a forum for making that happen in an easier 
way, then we should be encouraging that.
    And I think we're going to see in the--I spend a lot of my 
time now trying to deal with that region, and there is--these 
are countries that have had, in many instances, 30 or 40 years 
without any functioning political systems. And so it's in our 
interest to facilitate that kind of exchange and engagement, 
not so much to impose our thoughts of what's important, but try 
to have a real discussion among states that have been through a 
similar transformation.
    I think the Central Asian piece, from a human rights 
perspective, is in some respects the most important. Those five 
Central Asian states don't have a Council of Europe or 
certainly not a European Union. And they're tough states. On 
human rights terms, we have a range of challenges. But I think 
the OSCE, however fragile the architecture and however 
difficult, I think is a platform. And it's an especially 
important platform for the civil society in those states who 
feel so marginalized by their own political systems. So I think 
even though we continue to struggle over how to keep this as 
part of the mix, it's critically important in whatever we do 
that this be a piece of what we regard as a priority.
    And finally, again, to share Phil's reflections on Russia, 
we have our own challenges in dealing with the Russians on a 
bilateral basis for human rights. But it's part of the reset, 
it's part of our policy. We'll continue to engage. We 
understand that these are issues in which we often don't agree, 
but that doesn't mean we don't have the conversation. And it 
spills over to the OSCE, where often the Russians are at 
loggerheads with us about how far the OSCE should go. It's 
critical we keep ODIHR as a functioning, strong entity. It's 
critical that we keep doing the election monitoring. It's 
critical that the human dimension piece be strong and we keep 
that agenda where it needs to be.
    So we've got our work cut out for us. But I think we're 
pretty clear about what we need to do.
    Sec. Vershbow. I thank you, Senator, for posing some very 
good--interesting questions, challenging ones because, it's 
ironic, in the case of Russia that OSCE itself was something 
that evolved from a Russian or Soviet initiate--Brezhnev's 
European Security Conference proposals. Yet now Russia seems 
less enthusiastic about the full three-basket structure and 
process that is at the heart of the OSCE.
    Clearly there's a lot to be done on some of the issues I 
discussed in my statement in the area of conventional arms 
control. And I think the Russians still are keenly interested 
in that, even if we are having serious difficulties in the case 
of the CFE Agreement and finding a framework that respects the 
key principles of host nation consent and transparency that I 
mentioned. But hopefully the Russians will ultimately see that 
a world without any CFE Agreement, without the predictability 
and transparency that comes with negotiated arms control, will 
be a much more unreliable basis on which to build European 
security in the future.
    But we do face a bigger challenge in getting all three 
baskets back into the category of areas where the Russians are 
actively cooperating with us in the OSCE framework, and indeed, 
in other areas as well. Mike's addressed the human rights 
issues; I think in the area of conflict prevention and crisis 
management we've been trying for the last few years to 
strengthen OSCE's ability to act proactively and at the early 
stages of conflict.
    But there too we've encountered Russian resistance to 
giving more authority to the chairman in office to take the 
initiative to send a fact-finding mission to an emerging area 
of conflict. But this ultimately should be in Russia's 
interest. We all will save a lot in terms of potential for 
bloodshed and expenditure of our treasure if we can nip 
conflicts in the bud through political means. And that's where 
OSCE has great strengths that should be built upon.
    I see tremendous potential in Central Asia to focus on some 
of the transnational issues as well as the human rights issues, 
since those countries do indeed not have as many other 
institutional frameworks to which they can turn. And I think 
there too with--whether you're looking at drug trafficking, 
terrorism, organized crime--regional approaches that could be 
facilitated by OSCE would be tremendous contributors to 
Russia's security and to everyone else's.
    On the Mediterranean countries, I agree with my colleagues 
that the experience of the transition of the post-Cold War 
period is certainly something that OSCE could help in sharing 
with the countries of the Middle East and North Africa. There 
may be mechanisms that could be transposed from the European 
framework to the Mediterranean framework and in the security 
area as well, helping countries in transition develop civilian 
control of the military--civil-military relations. And hereto 
there may be an increased role for NATO which has had a 
Mediterranean dialogue, which has largely been a consultative 
forum, but may now have some operational role in the spirit of 
the Partnership for Peace-- what the Partnership for Peace did 
in Central and Eastern Europe and in the Balkans in the post-
Cold War period.
    So it's an organization with tremendous potential and we 
hope we can begin to realize more of that at Vilnius and 
beyond. And I agree with you on your points about closer 
preparation, and we will certainly want to coordinate closely 
with the commission as we go forward.
    Mr. Cardin. Well, I appreciate that.
    Secretary Posner, as you were talking about Russia and 
progress made in human rights and that we can deal with that 
and deal with other issues at the same time it reminded me of 
my first involvement with the Helsinki Commission dealing with 
Soviet Jews many years ago. And at that time, the logic of 
naming names was being challenged internationally. And naming 
names, I think, was perhaps the most effective way that the 
Commission was able to advance basic rights by putting a face 
on the issue.
    And I think most recently--and you mentioned the Sergei 
Magnitsky case, I think that also galvanized international 
attention. And although Russia may not like the fact that we 
have brought this on a personal level, it does bring it home 
that they have failed to live up to commitments under the OSCE. 
So I would just encourage us to continue to do that. I know 
there's a lot of pressure not to embarrass countries because of 
individual cases, but to me that's the most effective way that 
we're going to be able to make progress towards compliance with 
the principles of OSCE.
    One last question I have, which--it's a process question, 
and that is: The CSCE is 36 years old. When it was first 
developed, there was the Soviet Union, we didn't have a 
Parliamentary Assembly, Vienna was not what it is today. We're 
seeing things that are happening; the consensus process is 
being challenged, transparency is clearly a problem within 
OSCE, there's mixed signals we're getting from many capitals 
around the OSCE region as to how much support they're giving in 
Vienna. How does the United States interject itself into 
reforms within the OSCE?
    We have direct interest in the Parliamentary Assembly. It's 
played a critical role in election monitoring, one of the 
principle services provided by the OSCE. There's been friction 
between ODIHR and the Parliamentary Assembly. We had the 
secretary general of the Parliamentary Assembly--who happens to 
be with us today, Spencer Oliver--who was here in Congress when 
the original Helsinki Act was passed and has a lot of 
institutional knowledge of what needs to be done.
    I guess, as I saw the results in Astana, I realized that 
but for the United States we would not have been able to 
achieve what we did. It seems to me that reform within OSCE 
will not take place unless the United States is in the 
leadership. And how do we develop that? How does the United 
States put these issues up? I say that fully supportive of the 
importance of the OSCE today with all of its problems. But it 
could be much more effective, I think we all agree. How do we 
go about exercising that leadership in the United States?
    Sec. Gordon. And, again, I'm happy to start. And I'll start 
by saying we share your premise, especially those of us who try 
to work with the organization on a regular basis. It is clear 
that it is suffering from the consensus principle and a lack of 
political will among countries to allow it to function as 
efficiently as it needs to. So how do we deal with that and how 
have we been trying to do it?
    First of all, as you say, through our own U.S. leadership 
and vigorous action. Secretary Clinton herself is personally 
invested in this. That's why she went to Astana; that's why she 
has focused on this whole set of issues. The organization has a 
new secretary general and we will give him our full support--a 
very competent Italian, an experienced Italian diplomat. You 
mentioned the Parliamentary Assembly which we will also 
support. This Commission, and through our own efforts, we have 
tried to find ways to make the organization more efficient by 
allowing it to act, in some cases, when there isn't a 
consensus.
    And I think we mentioned using what's called the Moscow 
Mechanism in Belarus. Obviously, when we wanted to follow up on 
the very flawed elections and the use of violence by the regime 
that followed those elections last December, if the OSCE had to 
wait for every member to agree--that is to say including 
Belarus--it couldn't have played a role. So we invoked and 
supported the use of this Moscow Mechanism where a smaller 
number of OSCE countries can send an observer-investigator into 
a member state. And naturally, there was resistance to that in 
some quarters. But we actually managed to do it, and I might 
add including--with Russian support.
    So there are ways to use the organization. It's not easy, 
but those types of mechanisms can make it more efficient. We 
tried to suggest a similar reform when it comes to crisis 
response. At present, because of the consensus rule, the OSCE 
is just too slow. If violence breaks out in a participating 
state and most of us think it would be useful to have the OSCE 
send someone, it is necessary to get support of all of them, 
and lo and behold it's not surprising that maybe the state that 
is using force doesn't want it to happen.
    And we have tried to suggest that it would be more 
effective to have a crisis response mechanism that didn't rely 
on consensus, whether it's minus one or minus two or minus 
three. But that is one of the issues we have not reached 
consensus on, including from Russia which is reluctant to allow 
for that capacity. We still support it; we still think it would 
be a good idea to prevent a single country from blocking the 
organization as a whole to have a crisis response action. So 
that's unfortunate, and we will continue to try to lobby for 
that change.
    And then lastly I would just say that--to remind us all 
that even when the organization at 56 in Vienna is stymied by a 
lack of consensus, we shouldn't overlook the importance of the 
sub-organizations of the OSCE, including ODHIR, including the 
High Representative for Freedom of the Media, including the 
High Commissioner for National Minorities. These organizations 
are effective, sometimes quietly. So, you know, I just remind 
us all that even as we get frustrated sometimes maybe by an 
inability to get the entire organization to work, that doesn't 
take anything away from the effectiveness of some of these 
subgroups.
    Sec. Vershbow. Thank you, Senator. And thanks, Phil. Phil 
has covered some points that I would have made. I think the 
bottom line is you're right, that the American leadership is 
going to be critical to not only keeping the organization 
effective in what it's doing now, but getting it to engage in 
new areas where I think it can fill a void in the overall 
security architecture of Europe and Eurasia. So we have to very 
persistent in our diplomacy, patient but not too patient. I 
think we have to recognize that if the institution doesn't 
overcome what is, I think fair to call, a crisis of confidence 
on the part of some of its members in the institution itself, 
then it will be relegated to a second-tier status.
    So I think that we have to continue to work very hard to 
persuade the countries that have become more skeptical about 
OSCE that it really is an asset that they could use to deal 
with their own security problems and help them in dealing with 
threats on their doorstep, preventing conflicts from emerging; 
that it's not a burden, it's a relatively affordable 
institution in terms of what we spend on it, but it can deliver 
significant results. But clearly some countries still see OSCE 
as a threat. And we have to overcome that attitude.
    We certainly, from the DOD point of view, try to talk up 
OSCE in our defense dialogues with the countries in Europe and 
Eurasia. We certainly took a proactive role in the effort to 
revitalize the CFE Treaty. And while it has not yet borne 
fruit, we're still committed to try to shape an approach that 
can respect the principles that are important to all the member 
states but get that negotiating process back on track and bring 
the agreement up to date in light of new geopolitical 
realities.
    So, again, persistence in our diplomacy will be key, but 
clearly we have an uphill climb ahead of us.
    Sec. Posner. Just a couple words to add what both have 
said. Having attended both the human dimension meeting in 
Warsaw and the summit in Astana last year, it is clear to me 
how much the United States' leadership is vital. And I think 
it's incumbent on us also to be redoubling our efforts to 
engage at every level the Western European allies that should 
be standing with us on all of these issues. They're there, but 
they wait sometimes for us to lead. And for this organization 
to succeed, we have to have a critical mass of countries that 
are all working at full speed in the way that we do as a 
delegation. I'm very proud to be part of this Government 
because I see how much time and energy we put into these 
issues.
    Second thing, I think it is important that we change the 
dynamic in a different way, which is that we've got to move to 
create allies, for example, in the Central Asian area. It's one 
of the reasons I mentioned Kyrgyzstan twice--I'm going to 
mention in now a third time. It represents a potential change 
in the atmosphere and the environment of this organization if 
we can reinforce the best instincts of an emerging democracy in 
Central Asia, which Kyrgyzstan could be--we're not there yet--
but it would suggest that we have an ally in a different place 
where we could begin to build, I think, some new dynamic 
changes.
    The third thing, just following on what Phil said, I'm very 
high on the work on the high representative on the media. I 
think she's done an outstanding job. I also think the three 
tolerance representatives--Andy Baker in particular, who's 
focused on anti-
Semitism--below the radar in some ways, but taking on very 
tough issues, doing real factual fact gathering, and building a 
kind of momentum on very tough issues that are particularly 
important now in Europe. And so that agenda, the tolerance 
agenda, to me is a critically important one. We've got to, 
again, pay attention and make sure that the resources and the 
political support is behind that.
    Last point, Senator, in relation to your comment on 
Magnitsky, I think it's really important for us also to be 
taking on the tough cases, to make that part of the routine. 
Sometimes we do it privately, and when we can succeed that's 
the best. But as you've done in the Magnitsky case, you've 
raised the profile, you've caused us to, you know, redouble our 
efforts. We were very engaged, but we're now engaged some more. 
And we've certainly seen the reaction on the Russian side is 
that you've gotten their attention. And I think that's a good 
thing.
    Mr. Cardin. Well, I thank you all for your observations 
there. I was going to make an observation that the 
parliamentarians can really help you bring about the kind of 
consensus you need, but I didn't think this was good day for me 
to mention that, considering where we are in Congress. But I do 
think that the political involvement of the Parliamentary 
Assembly can help.
    As you mentioned, and I think rightly so, that the 
institutions within OSCE had a great deal of strength. Even 
though we need consensus for overall action, we have the 
institutions that are now well established. I might point out 
that in almost every one of those cases it was the leadership 
of the United States that either initiated or funded their 
operations. There was a lot of extra budgetary support that the 
United States was behind to support the human rights capacity 
of OSCE. And of course the tolerance was the U.S. initiative.
    So I guess what I would encourage us all to do--as we look 
towards the future, how do we transform OSCE to continue to be 
relevant to meet the current needs? And that's why I look at 
expanding its geographical side. I look at some of the steps 
that we could take to integrate a better relationship between 
the Parliamentary Assembly and the Permanent Council and what 
happens in Vienna. Those issues, I think, are election 
monitoring, which is one of our signature issues, and to make 
sure that we continue to have the type of support to be able to 
carry out those important functions. I think all that would be 
important for us to continue.
    Just one positive note before we call the second panel. Our 
annual meeting was in Belgrade, and we look in the Balkans 
today, and I think--although there's still many challenges, 
Kosovo and Bosnia are still very much at risk--but clearly the 
progress that's been made in the Balkans reflect not just the 
work of the OSCE but the leadership of the United States. And I 
couldn't tell you how proud we were to see the progress that 
was made in Serbia.
    I mean, Serbia was one of my principle countries of 
interest just a few years ago for its failure to meet OSCE 
commitments. And now it's clearly on the path for moving 
towards EU. And that's, I think, a credit to the support of the 
United States and the support of the OSCE through the process. 
So I think there's been a lot of successes that we can point 
to, but we still have challenges that we have to meet.
    And with that thank you all very much. And we'll move to 
the second panel. And, again, I apologize for the delay. Just 
for the record, tell our first panel there may be questions 
that we'll be submitting for the record. We would ask if you 
would get them back to us in a timely way.
    The second panel will consist of Dr. Mike Haltzel, senior 
fellow at the Center for Transatlantic Relations at Johns 
Hopkins University School of Advanced International Studies and 
a senior adviser at the international consulting firm of 
McLarty Associates. We also have Cathy Fitzpatrick, a 
consultant to the human rights organization, a frequent 
contributor to online publications at Eurasia and about the 
OSCE, and also a Russian translator. She has testified for our 
Commission several times, and has served as a public member of 
the U.S. delegation to OSCE Human Dimensions in 1991, 2004 and 
2010.
    And I appreciate the patience of both of you--obviously 
we're a little bit delayed. And we will try to move this on. We 
will keep the record open for questions from members of the 
Commission. We would ask our witnesses if questions are asked 
to try to respond to them as promptly as possible.
    Dr. Haltzel, I'd be glad to start with you.

 DR. MICHAEL HALTZEL, SENIOR FELLOW, CENTER FOR TRANSATLANTIC 
           RELATIONS, JOHNS HOPKINS UNIVERSITY (SAIS)

    Mr. Haltzel. Thank you, Mr. Chairman. I would ask, first of 
all, that the full text of my written remarks be entered into 
the record.
    Mr. Cardin. That's be true for both witnesses, your full 
testimony will be included in the record, and you may proceed 
as you wish.
    Mr. Haltzel. Thank you. It's an honor and a pleasure to 
participate in today's hearing. I'd like to take this 
opportunity to commend you and Congressman Smith for your 
energetic leadership of the Helsinki Commission. In a policy 
world where coping with daily crisis makes it easy not to see 
the forest for the trees, the Helsinki Commission stands out 
for its ability to examine both current problems and their 
deeper causes.
    I would also mention the, quote-unquote, ``foot soldiers'' 
of our OSCE policy. During the past two years I've had the 
honor of being the head of three U.S. delegations to OSCE 
conferences. The 2009 H-Dem [ph] in Warsaw, 2010 Copenhagen 
20th Anniversary Conference, and the 2010 Vienna Review 
Conference. I can honestly say, Senator, I've never encountered 
a more expert, hard-working and effective group of public 
servants than the members of those three delegations and the 
officials backing them up here in Washington, D.C. Several of 
them are here in the room today. I think American people are 
being extraordinarily well served by, and should be proud of, 
these U.S. Federal employees.
    Mr. Chairman, a lot of the territory was covered eloquently 
by the three assistant secretaries on the first panel. I will 
attempt to give a somewhat more general summary of an outsider 
who on occasion has been part of the OSCE process. When one 
views the Helsinki process over the nearly four decades of its 
existence one must, I believe, judge it to have been a 
resounding success. The old CSCE played a significant role in 
hastening the demise of communism in Europe, the Caucasus and 
Central Asia; and the territory of the OSCE today is 
unquestionably in much better shape than it was when the 
founders began their deliberations in the Finnish capital in 
the early 1970s.
    That's the relatively good news. The bad news--and I think 
we've heard it, again, in the first panel and from you also, 
Senator, is that since arguably its high point in 1990 at the 
Copenhagen Conference on the Human Dimension, where actually I 
was a public member, the organization has, in many respects, 
been a disappointment. To be sure, it faces formidable 
challenges. We've talked about Uzbekistan, in Andijan the 
massacre in 2005; Kyrgyzstan, which as a new democratic 
government and there is some hope, nonetheless had a violent, 
repressive leader who fled last year. We know about the 
insurgency spreading in Russia's largely Muslim North Caucasus 
where Moscow has farmed out control of Chechnya to a brutal 
warlord.
    These and other abuses, again, were outlined by the first 
panel and by Chairman Smith. Russia's military continues 
illegally to occupy parts of Georgia and Moldova, talks on the 
protracted conflicts seems stalled.
    What has the OSCE been able to do to remedy these problems? 
Unfortunately, I don't think enough. Last December's first-in-
a-
decade OSCE summit undoubtedly accomplished a formal 
reaffirmation of the organization's lofty principles. We 
deserve credit for leadership there, Phil Gordon especially.
    In a healthy organization, however, I submit that this 
reaffirmation would have been considered unnecessary. And we, 
as you know, did plan for an action plan. My final statement at 
Vienna, we outlined nine areas where the United States felt 
progress had to be made or we could not agree to an action 
plan. I'm glad we stuck to our principles because it would have 
been incomplete otherwise.
    The consensus rule we've talked about has become an 
increasing burden. Nondemocratic members, Russia above all, 
continually stymie organizational progress. We've talked about 
American crisis response proposals that have been blocked: 
preventive action in North Caucasus, aid in Afghanistan.
    The lack of an enforcement mechanism is also a fundamental 
weakness of the OSCE. At the Copenhagen conference last June, 
where several other people on the staff were also present as 
members of the delegation, we had a remarkably free and open 
discussion in the last session. And all of the countries 
basically said that the lack of an enforcement mechanism is a 
serious flaw.
    The public naming and shaming of human rights violators at 
the HDIM drives nondemocratic participating states up the wall. 
That's fine, and occasionally, it does improve the conditions 
of imprisoned civil rights advocates. It rarely alters general 
governmental behavior. It doesn't mean we shouldn't continue 
trying; we should.
    As several people have said, in the face of constant 
stonewalling, some segments of the OSCE do manage to carry out 
their mandates with distinction. I would cite especially Dunja 
Mijatovic, the representative on freedom of the media; ODIHR, 
of course; Knut Vollebaek, the OSCE High Commissioner on 
National Minorities; the Parliamentary Assembly; and last but 
not least, the valuable field missions and training programs of 
the organization.
    I won't repeat what Secretary Vershbow had to say about the 
arms control mandate. It's abundantly clear that Moscow's 
refusal to accept the host nation consent principle and 
transparency is a real disappointment. I certainly hope that 
the update of the Vienna Document at the December Vilnius 
ministerial will succeed.
    So finally, we have an organization whose effectiveness 
varies widely. As a norm setter, the OSCE has few, if any 
equals. Its specialized agencies and field mission remain 
valuable international players. But in enforcing its democratic 
and human rights principles and its arms control efforts, the 
OSCE has proved to be a disappointment. So what should we do?
    Mr. Chairman, frustrating though it may be to some, I would 
argue for more, not less commitment to the organization. U.S. 
leadership, as we've all heard, is absolutely essential. We 
should redouble our commitment both in personnel and in 
behavior. We have excellent people at our permanent mission in 
Vienna and a first-rate staff.
    We should continue to introduce constructive initiatives 
such as more effective crisis response mechanisms, which had 
been vetoed until now; updating the Vienna document, as I said; 
Internet freedom; greater economic transparency; more gender 
equality. Many of these may be vetoed, but nonetheless I think 
demonstrating that the U.S. is a good international citizen and 
a leader at the OSCE has intrinsic value that should not be 
underestimated.
    At the HDIM, in that same vein, we should always be candid 
about our own national shortcomings. We should publicly own up 
to our deficiencies, as we have done, but then we should 
explain the measures that we're taking to try to rectify them. 
This increases our credibility within the organization, 
especially among the European participating states.
    I think the United States should always be the foremost 
champion of NGOs and their right to participate in OSCE 
conferences, and, whenever possible, even in Permanent Council 
meetings.
    In the negotiations over all manner of OSCE documents, from 
routine announcements to treaties, we should be second to none 
as paragraph experts, even if people consider us nitpickers.
    Finally, Mr. Chairman, we should never ``go along to get 
along.'' On the vast majority of issues confronting the OSCE, 
we are in agreement with our European friends and allies. 
Occasionally, however, if they are willing, allegedly, quote, 
unquote, for the good of the organization, to acquiesce in 
resolutions or draft agreements that we feel would jeopardize 
our national interest or compromise the principles of the OSCE, 
we must resist group pressure to provide consensus. No matter 
how much eye-rolling it may occasion, our being a minority of 
one in such rare cases is not only ethically sound, but also 
organizationally the most supportive position for the OSCE.
    Mr. Chairman, this concludes my testimony. I thank you 
again for the opportunity to offer my views. I look forward to 
attempting to answer any of your questions.
    Mr. Cardin. Thank you again for your testimony. Ms. 
Fitzpatrick?

 CATHERINE FITZPATRICK, CONSULTANT, JACOB BLAUSTEIN INSTITUTE 
              FOR THE ADVANCEMENT OF HUMAN RIGHTS

    Ms. Fitzpatrick. Thank you, Senator, especially for 
treating the OSCE as the indispensable organization.
    What I would like to do today in my testimony is to focus 
on the excellent recommendations that have already been made by 
the OSCE Parliamentary Assembly in the Belgrade Declaration. 
But it needs some focus, as it's a very long document.
    OSCE should concentrate on developing a more effective 
capacity to react diplomatically to crisis with particular 
attention to strengthening human rights investigation capacity 
and high-level public statements on crises.
    There is a very frayed political consensus now, and the 
OSCE faces not only its longstanding set of frozen, and, in 
some places, thawing conflicts, but new challenges as we've 
seen this last year: the pogroms in Kyrgyrstan, the brutal 
crackdown in Belarus, the regression on press freedom by 
Kazakhstan even as it was chairing the organization, and, of 
course, the appalling terrorist attacks in Russia, Belarus and 
now, tragically, Norway.
    We never expected these kind of tragedies when we saw the 
Berlin Wall fall when the Soviet Union dismantled. And it seems 
as if our Helsinki ideals have not come to pass. The 
organization has not been able to predict or respond to these 
kinds of incidents effectively.
    So to that end, we must increase the complementarity, 
integration, and effectiveness of the various offices. We 
should work at the ministerial level on a consensus-minus-one 
basis to have a standby rapid reaction diplomatic mission. We 
should strengthen the ability of ODIHR, the High Commissioner 
for Nationalities, the various special representatives and the 
Parliamentary Assembly to mount fact-finding missions as an 
integral part of their function. We should also enable the 
OSCE's secretary general and other OSCE leaders to speak out 
more in condemnation of human rights violations, and not just 
leave it to the rapporteurs.
    All the deployed missions should have a human rights 
component, and they should report more publicly than they do. 
All the various institutions of OSCE should report to the 
Permanent Council more, and that body should become more 
transparent. I would advocate creating an OSCE mandate for 
freedom of association with particular focus on human rights 
defenders; this was done successfully by the U.S. at the U.N. 
Human Rights Council, and that could be replicated. And we 
should ensure that groups that incite hatred or violence or 
that call for the destruction of any state or for the 
destruction of anyone's rights do not receive government 
support.
    So the fact finding, which used to be at the heart of 
Helsinki experience with the citizens' movements, it seems to 
everywhere have been substituted with technical assistance and 
training seminars. And that's a strategy that evolved to cope 
with the refusal of some states to admit observers and accept 
criticism of their record.
    Through extraordinary efforts, the Finnish politician Kimmo 
Kiljunen was able to mount a prestigious fact-finding panel in 
Kyrgyzstan, as you know. Its findings represent an important 
validation of the fact that while 75 percent of the victims 
were ethnic Uzbeks, nearly a hundred percent of those tried for 
the violence are also ethnic Uzbeks. And this disparity 
represents a grave injustice. Although he was invited to 
investigate the June pogroms by President Roza Otunbayeva, 
Kiljunen was subsequently denounced by the Kyrgyz parliament 
and declared persona non grata. So the OSCE PA has followed up 
with this. There's been hearings with NGOs and so on, but more 
is required. The Lithuanian chair-in-
office should immediately appoint a special envoy on Central 
Asia to continue to press for implementation of the 
Commission's recommendations. And there is a precedent for such 
an envoy.
    As good as it was, this Commission exposed significant 
weaknesses in OSCE: the lack of a well-functioning permanent 
institution staffed with regional experts and lawyers to 
perform fact-
finding missions in rapid and thorough fashion.
    Throughout OSCE's history, the function of fact finding has 
been performed by different offices in different ways at 
different times: Sometimes it's ODIHR with a very good report 
on Kosovo and Chechnya in the past and on Andijan; sometimes 
it's the High Commissioner for Nationalities; sometimes it's 
the Parliamentary Assembly. So this is where this needs to be 
coordinated and institutionalized better.
    This process of fact finding should be shielded from 
political processes. And to that end, the various bodies, such 
as ODIHR and Parliamentary Assembly, should coordinate better 
and institutionalize their fact finding and interact with the 
Vienna Conflict Prevention Centre and the Permanent Council.
    The right to know and act upon one's rights, which was the 
inspiration for the founding of the Helsinki citizens' 
movement, is still not a reality, even 35 years later.
    Regrettably, work on behalf of NGO legalization has 
devolved into a very tedious and expensive exercise in 
technical assistance to two states for drafting laws and civic 
association parties. But for some governments, that turns into 
an opportunity to exhibit their duplicity and procrastination. 
So I would rather see--instead of this focus on drafting laws, 
I would like the OSCE to have a special mandate to focus on the 
civic organizations that already exist and their actual 
problems and to intervene with states on their behalf, 
particularly for human rights monitors.
    And even as we want to promote civil society, we also have 
to be mindful of groups that incite imminent violence, and that 
speaks to the role of the tolerance mandates and so on to 
report more effectively.
    The Permanent Council could indeed become more open and 
transparent. While some officials do brief these meetings, the 
head of ODIHR, the tolerance rapporteurs, the mission heads--
they're an invaluable resource--they should all be coming to 
the Permanent Council and reporting more.
    As for the call for public meetings at the Permanent 
Council--well, we have seen at the U.N. Security Council that, 
regrettably, when you have open meetings, than can lead to more 
public posturing and canned speeches, and it drives the real 
work then even further behind the scenes. So what I feel is 
more operative is that, even if the sausage-making of diplomacy 
is hidden from us, we should see the product of it more often. 
So that means more consensus text from the chair, more 
negotiated resolutions, more reporting. The U.S., of course, 
has set a good example already by publishing their speeches to 
the Permanent Council; few others, if any, do.
    As for briefing by NGOs, there was a call in the Belgrade 
Declaration to make this as often as once a week. I fear that 
would only lead to some special interests posturing again and 
also only those wealthy organizations that can afford to stay 
in Vienna would be able to report. So I would like to see other 
ways of just incorporating the NGO information better and also 
arranging briefings occasionally.
    Work on the charter status for OSCE should be delayed. An 
organization that has had two missions expelled or suspended--
in Belarus and Georgia--and has had grave situations where OSCE 
monitors or police advisers could not be deployed in a timely 
fashion or were expelled, as we saw in Belarus, Georgia, 
Kyrgyzstan--that's not an organization that should be drafting 
a charter until a basic consensus on both the nature and the 
remedies for these situations is reached. We all lament the 
absence of [teeth ?] for the many good findings and 
recommendations of OSCE.
    A debate on membership or expulsion criteria will likely be 
futile. We could try to agree that no state seriously violating 
Helsinki principles should be allowed to chair the 
organization, and yet that is also a process we find we're not 
able to start--to question.
    But what we can do is create benchmarks that are very clear 
for what we expect of the chair; for example, Ukraine coming in 
and articulate those forcefully well in advance, and to protect 
those groups inside the country that continue to expose the 
violations by the state that is serving as chair.
    So there's little that we can do sometimes, but when all 
else fails, we can refuse to validate a state's behavior. And 
that's when--when we look at some of the challenges coming up--
for example, the Russian elections--I think it's very important 
not to reopen the process of evaluating criteria for 
monitoring; we should leave that as is and hopefully make the 
same kind of credible statement about these elections that 
ODIHR and others have made in the past.
    Thank you, Mr. Chairman.
    Mr. Cardin. Well, thank both of you for your testimony. 
You've given us a lot of really good ideas on the type of 
reform. I put at the top of the list consensus minus one, 
particularly as it relates to administrative decisions. We can 
move faster in that. Transparency, to me, is a huge issue 
within OSCE. The development of the structure in Vienna, which 
seems to be, in many cases, independent of the member state 
capitals, and how we get greater response in Vienna--quicker 
response and be able to work more effectively to deal with 
current issues--I think all of that's important.
    I want to ask one question, and we may have some additional 
questions for the record. And this is one that I don't think 
has been given a lot of thought as to whether this is the best 
way to move forward within OSCE. And that is the chair-in-
office.
    I mean, some of your proposals are to give more authority 
to the secretary general or to allow the different institutions 
to be able to move forward or to have greater accountability 
within the institutions directly to the secretary general. But 
it seems to me that so much depends upon the chair-in-office 
within OSCE. And I must tell you, I'm not sure there's a clear 
path as to how the future chairmanships are going to be 
determined within OSCE. There's certainly a geographical 
discussion going on now. And I don't know what the answer is, 
but I am concerned about so much dependent upon which country 
is the chair within OSCE and whether there isn't a better way 
to provide a direction than a yearly rotation of the chair from 
one of the member states.
    Ms. Fitzpatrick. Well, Senator, I would keep the chair-in-
office because it's--as with other multilateral organizations, 
you have the EU changes every six months, you have the U.N. 
Security Council changes its presidency every month. So 
changing once a year isn't so terrible. And in any multilateral 
organization, you're in a dialogue with some states that are 
not like-minded; sooner or later, if they're members, they're 
going to rotate into the chair.
    I think what--a lot of time was spent during Kazakhstan's 
chair in trying to explain precedents to them and bolstering 
precedents from good practices by chairs, so that's important.
    Mr. Cardin. I don't disagree with that. I'm really raising 
this, not so much to suggest that there be a different--but how 
do you deal with that? With Kazakhstan coming in as chair-in-
office, it was so much attention on the chair that it really, 
in some respect, detracted from the organization.
    Ms. Fitzpatrick. I agree that it did detract, and I think 
that's where we have to work at bolstering ODIHR and the 
capacity of other bodies to do fact finding, because the 
chair--during the Kazakh chair, there was very poor response on 
fact finding in crises.
    But on the other hand, things like appointing--I mentioned 
appointing the special envoy. That is within the power of the 
chair. There's not a lot you can undo, but they do have this 
discretionary power to appoint people, and then--and how they 
shape the human dimension seminars, what the topics are. So 
there is some scope there for making the chair effective.
    Mr. Haltzel. I agree with you, Senator, it's a real 
problem. Don't forget we were one of the last countries to 
agree to Kazakhstan's chairmanship-in-office. You know all 
about that. I believe the U.K. and the Czech Republic were the 
other two. There were meetings in Madrid. They promised some 
things, several of which they never delivered on.
    I'm not enamored of the idea. And yes, the EU has a 
rotating presidency, but they've whittled that way, way down as 
a result of their newest--I mean, basically, the presidency of 
the EU means a whole lot less than it did before the Lisbon 
Treaty. So I'm not sure that that's much of a model.
    Look, I think what we can do is, first of all, be very 
careful about who gets into the chairmanship. And then we can 
bolster them. As you well know, we have been helping the 
Lithuanians. I think that's extremely good. Todd Becker, one of 
our experienced diplomats, I'm told, has been seconded there 
for the year. And some of the smaller countries need that sort 
of help. And in fact, I remember when Slovenia was chairman-in-
office several years ago; they sent people over here to talk to 
us to try to help them. But beyond that, I don't know. I have 
the same sort of doubts that you do.
    If I could backtrack on just one thing very briefly--and 
that has to do with the suspension idea--I had that in my 
written statement--but I feel that yes, the Moscow Mechanism is 
being used against Belarus right now, but we heard from an 
earlier testimony that the Belarusians are managing to 
stonewall even within the Moscow mechanism. It is not unheard 
of to suspend a country from the OSCE; it was done in 1992 
against Yugoslavia, then Serbia and Montenegro because of the 
wars there. I think if one is talking about leverage, I think 
the United States should carefully consider bringing up a 
resolution of suspension unless Belarus cooperates fully with 
the Moscow Mechanism and changes some of its behavior.
    Mr. Cardin. Well, our delegation to the Parliamentary 
Assembly a couple of years ago challenged Belarus, and we 
didn't get very far. So it's a tough thing to actually 
accomplish. But your point is very well taken.
    Let me ask you one final question as it relates to Russia. 
What do you think--we know what Russia's intentions were when 
the CSCE was formed: They wanted legitimacy in the 
international community, and they thought that they could 
withstand the scrutiny. And now we're not exactly sure what 
their intentions are. Would you want to share with us what you 
think our best strategy should be with Russia as it relates to 
the OSCE?
    Mr. Haltzel. Senator, I think they have, to some extent, 
contradictory strategies. Don't forget, in 2008, President 
Medvedev gave a speech in Berlin outlining his idea for a new 
European security architecture, which was brought up within the 
OSCE and, I'm happy to say, has more or less died a peaceful 
death. It would have clearly undermined NATO and it should've 
been, and I think really was, a nonstarter. I testified before 
the Permanent Council on this in 2009.
    My own feeling is that Russia would like HDIM to vanish 
from the face of the earth. They would like to concentrate on 
the arms control areas to their own advantage. And they don't 
really care very much about the economic and environmental. I 
don't think they want to see the whole organization die. I 
think they'd be happy to see it just sort of dangle in the 
wind.
    What should we do about this? I think what we should do 
about it is what we should do about the whole organization: 
redouble our commitment. Put them on the spot. I mean, they had 
a perm rep in Vienna who was the--[laughs]--I have to laugh--
the most aggressive but skillful man imaginable. I mean, and he 
would just bull straight ahead. There's only one way to deal 
with that; it's just have more staying power than they do, be 
completely open about the arguments they're making being 
specious, be the last delegation to leave a negotiation and 
show our European friends that we're leaders and that we're 
good international citizens and that we want to be the leaders 
of the OSCE.
    Mr. Cardin. Good point.
    Ms. Fitzpatrick. Well, I think on the challenge of Russia, 
that it was actually a very explicit plan of Russia to 
undermine OSCE's human rights components. From their letter 
some years ago, signed also by Kazakhstan and others, I think 
they've worked very methodically at destroying budgets, 
undermining the principles. So I think they have to be called 
on that.
    And I think the elections present profound opportunity, but 
also a challenge, because ODIHR and others will be under 
enormous pressure to call that as being valid. And we can 
already see with the crackdown on Live Journal, with many 
problems in Russia, their real conditions don't obtain for free 
and fair elections. So I think focusing on the election is very 
important. And I also think that the Moscow Mechanism has to 
mechanize in Moscow on Belarus. We have to explicitly negotiate 
with Russia on Belarus. There's one school of thought that 
says, never raise Belarus with Russia, because that puts it 
into their sphere of influence. But they're the ones who bail 
out Lukashenko. Their television is also very important. So I 
think any component--you know, programming that we do should 
focus on Russian television. It's no Al-Jazeera for this region 
by any stretch, but it's all we have as far as reaching the 
whole region by satellite, so we should work more on getting on 
Russian television to make known our views.
    Mr. Cardin. Well, let me thank both of you. I think your 
testimonies have been very helpful to us as we try to chart the 
future leading up to the ministerial in Vilnius, but more 
importantly, leading to the future of the OSCE. With that, our 
hearing will stand adjourned. Thank you all very much.
    [Whereupon, at 3 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


            Prepared Statement of Hon. Christopher H. Smith

    Good afternoon and welcome to our witnesses and everyone joining us 
today. It is not often that we have the honor of hearing from three 
assistant secretaries at the same time, including two also serving as 
Helsinki Commissioners. As Chairman of the Helsinki Commission, I 
appreciate the close and cooperative relationship the commission has 
long had with the executive branch.
    Today we will explore U.S. policy towards the Organization for 
Security and Cooperation in Europe--a unique intergovernmental 
organization that incorporates human rights and economic development 
into its comprehensive concept of security.
    Unfortunately, over the past several years, OSCE countries with 
poor human rights records have been able to thwart some of the 
Organization's work on these issues.
    Last December, at the Astana summit, the OSCE's first summit since 
1999, OSCE states failed to reach consensus on an action plan laying 
out priorities for the coming years. Yet the OSCE needs to continue to 
focus on fundamental human rights issues. This is its heritage--the 
reason it was created in the 1970s. It must not allow itself to be 
sidetracked by Russia or other un- or semi-democratic states which 
argue that the Organization should look only at positive examples of 
``best practices,'' or that distract the OSCE from its work by 
insisting on lengthy discussions of OSCE ``reform.''
    Likewise our own Government must raise the priority given to human 
rights and humanitarian concerns, from supporting oppressed people of 
Belarus, turning back the trend to restrict Internet and media freedom, 
supporting democracy in Kyrgyzstan, democratic activists throughout all 
of central Asia, making sure the OSCE Partnership program is used to 
genuinely promote human rights for oppressed minorities, as for the 
Copts in Egypt, helping OSCE countries to address the disturbing and 
potentially tragic demographic trends found in almost all member 
states. All of these have been the subject of recent Commission 
hearings, and we look forward to working with the executive branch on 
these issues.
    One issue I'd particularly like to raise here is international 
child abduction. I authored a resolution that was adopted at the OSCE 
Parliamentary Assembly Annual Session in Belgrade earlier this month 
urging the OSCE to take up the issue of international parental child 
abductions by promoting better implementation of the Hague Convention 
on the Civil Aspects of International Child Abduction. I believe the 
OSCE Ministerial in Vilnius this year could set new standards for OSCE 
states to fill gaps in the convention's implementation, and hope to be 
able to work together with the Department of State toward this goal.

              Prepared Statement of Sec. Philip H. Gordon

Introduction

    Chairman Smith, Co-Chairman Cardin, Members of the Commission: 
Thank you very much for inviting me here today to discuss our agenda 
for the OSCE. Let me also take this opportunity to thank the excellent 
Helsinki Commission staff members who have worked long, hard, and in 
cooperation with their State colleagues to safeguard the principles and 
commitments of the OSCE, and to hold participating States to account.
    I will focus my remarks today on the OSCE in the aftermath of the 
December, 2010 Astana Summit. I will begin by looking at our core 
foreign policy goals for the OSCE, reviewing the achievements of Astana 
and looking forward to the OSCE's Ministerial meeting in Vilnius this 
December.

OSCE: Shared Values, Inconsistent Implementation

    Nowhere does the United States have better or more valuable 
partners than in Europe. The U.S. and Europe share common values, our 
economies are intertwined, and our militaries work together to address 
common security challenges. U.S. bilateral engagement with our European 
partners is complemented by our work together in key multilateral 
regional institutions. Our engagement with NATO Allies--including 
operational military cooperation--on the full gamut of security issues 
has no equivalent anywhere else in the world. Through the OSCE we are 
able to engage on such U.S. priorities as advancing human rights and 
fundamental freedoms, building democratic institutions in the Western 
Balkans, combating trafficking in persons, as well as North Africa and 
Afghanistan, to name just a few. In this age of a tight budget and many 
demands, multilateral approaches often present a more effective 
alternative to unilateral engagement.
    The OSCE was founded on the principle of comprehensive security, 
that is, the conviction that true security has an economic and 
environmental dimension and a human dimension, in addition to the 
political-military dimension. As the world'slargest regional security 
organization with membership that stretches from Vancouver to 
Vladivostok, with partners in Asia, the Middle East, and North Africa, 
the OSCE has unmatched scope to advance this concept and strengthen 
security across all three dimensions and increasingly beyond the OSCE 
region itself.
    Today the principles and commitments enshrined in the founding 
document of the OSCE--the Helsinki Final Act--are facing serious 
challenges from both inside and outside the organization. From within, 
there is uneven application of the Helsinki principles, and I regret to 
say that there are OSCE participating States where journalists can find 
it too dangerous to report the news, where political activists are 
beaten and incarcerated, where religious and minority groups, such as 
the Roma, continue to face persecution, and where economic growth is 
stifled by endemic corruption. Regional crises and transnational 
threats are proliferating. Efforts to resolve the protracted conflicts 
in Georgia, Moldova, and Nagorno-Karabakh continue to face frustrating 
obstacles. The OSCE's inability to reach consensus on ways to address 
these issues is increasingly identified by critics as evidence of the 
organization's ineffectiveness.
    This Commission--and your able staff--know well the reasons why 
OSCE decision-making is complicated and how easy it is for one nation 
to use the organization's consensus rule to prevent timely and 
effective action in a situation of crisis. Russia's determination to 
limit the role of OSCE in Georgia, for example, has diminished 
possibilities for international engagement in this region where 
transparency and confidence-building are sorely needed.
    Problems like these make headlines, but they offer only a partial 
picture of the role OSCE plays in Europe today. The OSCE has deepened 
and strengthened European and Eurasian security through initiatives to 
enhance rule of law, provide for free and fair elections, develop an 
independent media, respect the rights of minority groups, and improve 
the ability of citizens to exercise their fundamental freedoms. The 
OSCE's Office of Democratic Institutions and Human Rights (ODIHR) and 
the OSCE's field missions have been at the forefront in assisting OSCE 
participating States to strengthen their democracy and thereby their 
security.
    In concert with those bodies, the OSCE Parliamentary Assembly, the 
High Commissioner for National Minorities, the Representative on 
Freedom of the Media, and the Chairmanship's Special Representatives on 
Tolerance and Gender Issues make for a powerful set of instruments to 
help participating States live up to their commitments and thus bring 
security to the region.The OSCE has made tremendous strides toward 
building a zone of prosperity and stability that stretches from western 
Canada to the Russian Far East. Although it is at times stymied by a 
lack of sustained political will and attempts by some participating 
States to constrain its flexibility, the OSCE nonetheless remains 
uniquely positioned to build confidence, promote good governance, and 
protect human rights and fundamental freedoms in Europe and Eurasia.

Moving Forward from Astana

    At the Astana Summit last December--the first OSCE Summit in eleven 
years--the 56 participating States issued the Astana Commemorative 
Declaration--a strong reaffirmation of the Helsinki principles and 
commitments and the entire OSCE acquis. This included the first-ever 
explicit affirmation by the former Soviet states of the declaration 
originally made in the OSCE's 1991 Moscow Document that makes human 
rights conditions in individual OSCE participating States matters of 
``direct and legitimate concern'' to all of them. The final document 
also tasked future OSCE Chairmanships to build on efforts last year to 
develop an action plan to address a range of common challenges that 
notably include the protracted conflicts, conflict prevention and 
crisis response, counter-narcotics, counterterrorism, issues facing 
media freedom, anti-Semitism, treatment of minorities such as the Roma 
and Sinti, and trafficking in persons to name a few.
    The Astana Summit also underscored the vital role that civil 
society plays in the OSCE region, as numerous human rights activists 
from some of the OSCE region's most embattled corners engaged 
constructively with government delegations and provided input to the 
work of the Summit. With strong U.S. support, NGOs and civil society 
representatives participated in the final three days of the Human 
Dimension portion of the Review Conference preceding the Summit, as 
well as in a civil society forum and an independently organized 
parallel NGO conference. Secretary Clinton also held a vibrant, 
standing-room only town hall event at Eurasian University with NGO and 
civil society representatives.
    The Astana Summit opened a new chapter for the OSCE. It provided 
renewed impetus for action to make the OSCE space--including the 
Central Asian space--even more democratic, prosperous, and secure for 
our citizens. The Administration has remained deeply engaged in the 
work of the OSCE across all three dimensions. We are seeking ways to 
sustain the momentum that was generated--in both government and civil 
society networks--by the Astana Summit.

Lithuania's Chairmanship

    In 2010 and 2011, crises in Belarus and Kyrgyzstan demonstrated the 
ongoing need for the OSCE to hold its membership to the highest 
standards of human rights performance and comprehensive security. The 
tragic case in Russia of Sergey Magnitsky, a lawyer who died in pre-
trial detention, is most illustrative of the problems facing the 
judiciaries of too many member states, and a problem that we are 
seeking to address in close consultation with Senator Cardin and others 
on this committee.
    We will continue to press for greater implementation of OSCE 
commitments in Europe. The Arab Spring has shown us vividly the link 
between democracy and security, and we will look for opportunities to 
offer OSCE expertise in democratic transition and institution building 
to the countries of North Africa and to the OSCE's other partners, such 
as Afghanistan.
    Soon after the Astana Summit, Belarus presented the first challenge 
for the OSCE as its government launched a sustained, brutal crackdown 
against opposition politicians and activists, civil society, and 
independent media after a flawed presidential election. Since then, we 
have worked closely with the Lithuanian Chairman-in-Office, the EU, and 
like-minded OSCE participating States to manage and address these 
issues. Despite rhetoric that it was willing to cooperate with the 
OSCE, Belarus refused to extend the mandate of the OSCE Office in 
Minsk, claiming that the Office's mandate had been completed. At the 
government's insistence, the OSCE office in Minsk officially closed in 
March. In stark contrast to the stunning events unfolding during the 
Arab Spring in Northern Africa, Belarus seems to have entered a 
prolonged winter of backpedaling on human rights and fundamental 
freedoms.
    In response, we joined with 13 other participating States to invoke 
the Moscow Mechanism, a tool established in the 1991 Moscow Document 
that allows for special rapporteur missions to address concerns about 
the implementation of human rights commitments. Together we appointed a 
rapporteur to investigate the crackdown by the Government of Belarus 
against opposition candidates, civil society representatives and 
journalists, and the mass arrests that followed the December 19 
presidential election. Though Belarus refused to cooperate, the 
rapporteur was able to conduct his fact-finding mission and reported 
back with a number of constructive recommendations that holds the 
Government of Belarus accountable for its failure to protect human 
rights and fundamental freedoms,including freedom of expression, 
prohibiting torture, and upholding the rule of law. We continue to work 
to ensure that the OSCE and the international community focus on the 
concerns raised in the report.
    Dramatic developments in OSCE's partner states have captured 
headlines. Working closely with the Lithuanian Chair, we have supported 
engagement with Tunisia and Egypt in order to offer OSCE expertise to 
nascent democracies emerging in North Africa. We are taking a 
realistic, pragmatic approach offering advice and guidance on issues 
such as democratic elections and human rights monitoring. Assistance 
could come through sharing of materials such as handbooks and 
guidelines, visits by subject matter experts, and participation in OSCE 
meetings, conferences, seminars, as well as specific projects--either 
in the OSCE region or in the Partner State. At the request of Egyptian 
activists, ODIHR is already organizing a workshop for Egyptian civil 
society on international standards and tools of election observation, 
in advance of Egypt's November parliamentary elections.

Goals for Vilnius

    In December, the OSCE will meet in Vilnius, Lithuania at the level 
of foreign ministers to review results achieved since Astana and take 
decisions for future work. The United States is working with like-
minded partners to achieve specific results in all three dimensions:

    <bullet>  In the political-military dimension, we want to agree on 
a substantial update of the Vienna Document, which will be reissued at 
Vilnius for the first time since 1999. Building on the existing 
measures, we are re-examining how data exchange, notification, 
observation, and possibly other measures can offer greater security and 
transparency in light of today's smaller post-Cold War military 
establishments. Our effort to update the Vienna Document is part of our 
broader commitment to improve military transparency in Europe and 
ensure arms control and the confidence and security building measures 
regime are relevant to the challenges of the 21st century. U.S. efforts 
to find a way forward on the Conventional Armed Forces in Europe Treaty 
are separate from this work on Vienna Document, but they are motivated 
by some of the same goals and concerns: we want to achieve greater 
military transparency and cooperation on conventional forces in Europe 
as a route to increased confidence and trust.

    <bullet>  In the economic-environmental dimension, we want to 
endorse greater economic transparency, good governance and anti-
corruption measures, as well as identify ways to better empower women 
in the economic sphere. Citizens must be able to trust their 
governments to develop economic and environmental resources in a 
responsible and equitable manner. We hope that at Vilnius all OSCE 
members will endorse the Extractive Industries Transparency Initiative 
endorsed by the G-8 in Deauville, and agree on goals and best practices 
to promote the economic empowerment of women.

    <bullet>  In the human dimension, we hope to take the Helsinki 
Final Act into the digital age. We are seeking consensus on a 
declaration that would explicitly acknowledge that human rights and 
fundamental freedoms can apply to online activity as they do to offline 
activity. This includes, in particular the freedoms of expression, 
assembly, and association. Even more urgent is the need to reaffirm and 
strengthen governments' commitment to the protection of journalists. 
Both of these goals address priority issues for both the OSCE 
Representative on the Freedom of Media and the Lithuanian Chairmanship.

    We also want to see the OSCE give greater attention to Central 
Asia, including addressing longstanding challenges to democracy and 
human rights in that region. The OSCE can and should assist 
Kyrgyzstan's fledgling parliamentary democracy and play a greater role 
in helping stabilize and secure Afghanistan, particularly in the area 
of border management.
    Of course, we envision that the Vilnius Ministerial will be an 
opportunity for OSCE Ministers to declare formally our support for 
Mediterranean Partners, such as Egypt and Tunisia, and offer to assist 
them in democratic institution building and electoral reform.
    Finally, the OSCE must continue to play a direct role in resolving 
the protracted conflicts in Georgia, Moldova, and Nagorno-Karabakh. As 
the 2008 war in Georgia showed, these conflicts hold the devastating 
potential to destabilize security in the OSCE region, and their 
resolution must remain a high priority for the OSCE and all its member 
states. We intend to use the meeting in Vilnius to highlight progress 
made on each of these conflicts this year and the challenges that 
remain to be addressed. This is difficult and frustrating work. But 
OSCE is one of a handful of international institutions that has the 
political standing to engage on the protracted conflicts, and it has 
the ability to shine a light on the human and security situation in 
these regions. Impartial, comprehensive, accurate reporting is not 
something to be feared or avoided, and that is what OSCE is ideally 
suited to deliver, if it can get unhindered, status-neutral access to 
regions of conflict. If the OSCE's role is undermined, the 
international community is diminished; the United States will stand 
firmly against that. We will continue to push hard to improve theOSCE's 
ability to respond to crises in a fast and effective manner, including 
preventing the development of new conflicts in the OSCE area.

OSCE Moving Forward

    We all know that a consensus-based organization with 56 
participating States sometimes moves in baby steps when we want to see 
larger and faster strides. We can take comfort that whether the OSCE is 
working to eliminate rocket fuel in Ukraine, advocating for journalists 
and bloggers in Azerbaijan, or developing a multi-ethnic police force 
in Serbia and Kyrgyzstan, those small steps can result in impressive 
progress over time, and thus deserve our sustained attention.
    The OSCE enables its participating States to address issues of 
concern in a forum which allows for a full and open debate. The issues 
can seem intractable but exchanging words beats the alternative of 
exchanging bullets. We have had bullets exchanged in the OSCE space in 
the last three years and that is something the OSCE participating 
States need to eliminate in the future. The potential of the OSCE has 
not yet been fulfilled - and therein lies its promise for the future.
    The Helsinki Commission--you, the Commissioners, and the experts on 
your staff--play a vital role in ensuring that the participating States 
keep the promises they made at Helsinki. With your support, the United 
States will continue to play a leading role at the OSCE, to strengthen 
and build upon the progress the participating States have made over the 
past 35 years, and bring us closer to a truly stable, secure, and 
prosperous OSCE region.
    I am happy to take your questions at this time.

              Prepared Statement of Sec. Michael H. Posner

    Thank you, Mr. Chairman. Distinguished Members of the Commission: I 
appreciate your calling this timely hearing on the work of the 
Organization for Security and Cooperation in Europe (OSCE) as we plan 
for the December Ministerial Meeting in Vilnius and beyond. I have the 
privilege of working for a former Helsinki Commissioner, Secretary 
Clinton, and it is my honor to serve as the Helsinki Commissioner for 
the Department of State. The Commission's efforts help strengthen my 
hand and that of my State Department colleagues as we work with other 
governments, civil society advocates, and the private sector to defend 
and advance human rights and democratic government across the OSCE 
region.
    Mr. Chairman, I would ask the Commission to consider my testimony 
today in conjunction with that of Assistant Secretaries Gordon and 
Vershbow. If I may, I will direct my comments today in particular to 
the OSCE's Human Dimension--the principles that animate it, the 
challenges that confront it, and what all of us can and must do to 
defend and advance it. As the only regional forum with a membership 
that stretches from Vancouver to Vladivostok, the OSCE constitutes a 
vital platform for raising concerns about human rights and democratic 
governance in key countries of concern, such as Belarus, Russia and 
Uzbekistan.

A Pioneering Process, Then and Now

    The Helsinki process was launched 36 years ago next week, in the 
midst of a Cold War and in a different century. The past twenty years 
since the end of Soviet Communism have seen profound changes in the 
OSCE region and the world. With them came an opportunity for the 
participating States to increase in number, establish and develop the 
OSCE as an organization, and, most significantly, agree to ground 
breaking commitments in the areas of human rights and democratic 
governance. These commitments remain a global high water mark. The OSCE 
has not been merely a reflection of the great post-Soviet geopolitical 
changes. The OSCE's comprehensive concept of linking security among 
states to respect for human rights within states, and the citizens 
monitoring movements that the Helsinki process inspired, helped create 
and shape the new reality in Europe and Eurasia.
    And I would submit, Mr. Chairman, that the OSCE's comprehensive 
approach to security, the human and democratic values at the core of 
the Helsinki process, and its recognition of the vital role and 
contributions of civil society--remain inspiring and innovative 
concepts in this new century, not just to men and women within the OSCE 
region, but to people around the world.
    Time and again, most recently in North Africa and the Middle East, 
we see that governments' respect for human rights and their 
responsiveness to the aspirations of their citizens are essential to 
security, stability and peace. The OSCE, and the civil society groups 
associated with the Helsinki process, can make useful contributions of 
experience and expertise to our partner Mediterranean States undergoing 
transformations. Even as we speak, OSCE's Office for Democratic 
Institutions and Human Rights (ODIHR) is holding its first workshop for 
Egyptian civil society representatives interested in election 
monitoring in support of the Arab Spring.

The Enduring Importance of Implementation

    As Assistant Secretary Gordon noted, the participating States at 
the Astana Summit last December, including those that joined the OSCE 
in the post-Soviet period, reaffirmed in the Summit's Commemorative 
Declaration the principles of Helsinki and all the commitments made to 
date. They also reaffirmed that human rights are not solely a domestic 
issue, but also a matter of ``direct and legitimate'' interest to other 
States. Secretary Clinton, Assistant Secretary Gordon, Ambassador Kelly 
and his outstanding delegation, and I worked intensively with like-
minded counterparts to ensure that the Commemorative Declaration was 
strong and unequivocal. I believe that we succeeded.
    But we all agree that reaffirmation is not enough. We must continue 
to address serious problems of implementation within OSCE participating 
States, through our bilateral diplomacy and through the OSCE and other 
multilateral organizations.All countries, including our own, have room 
for improvement in living up to our OSCE commitments and all have a 
responsibility to do so. That said, the work and resources of the OSCE 
should focus most on the areas where implementation remains weakest and 
where humarn rights and fundamental freedoms of individuals and 
democratic principles of government face the greatest challenges. This 
is not a reflection of political bias or double standards. It is not a 
matter of ``East of Vienna versus West of Vienna''--as some 
participating States assert. The divide that concerns the OSCE is not 
between East and West; OSCE must address the gap between commitments 
and practice. Human rights are universal, but they are not universally 
respected in the OSCE region. That is the truth, and the OSCE must 
address it.
    Advocates of human rights, democracy, and labor who seek to help 
their fellow citizens know and act upon their rights are targeted for 
persecution, even murder, in some participating States. Laws are 
wielded like political weapons against those who expose abuses or 
express disagreement with official policies and practices. Judicial 
independence and the rule of law have yet to be established or fully 
respected in practice. NGOs are subjected to increasing legal 
restrictions and burdensome administrative measures that impede their 
peaceful work, reflecting a disturbing global phenomenon. There are 
human rights and humanitarian aspects of protracted conflicts that must 
be addressed as essential elements of settlement and reconciliation 
processes.
    Media--particularly independent media--are under pressure to be 
silent or to self-censor. For practicing their profession, journalists 
are victims of brutal, sometimes deadly, attacks, often carried out 
with complete impunity. Countries in the OSCE region are also part of a 
growing global trend by governments to restrict Internet Freedom, and 
thus the exercise of freedoms of expression, association and assembly 
via new media. Too many people in the OSCE region are denied the 
opportunity to access a range of sources of information. The 
Representative on Freedom of the Media, Dunja Mijatovic, who testified 
before you a few weeks ago, deserves special mention for raising 
awareness and pushing to protect journalists and an independent media 
throughout the OSCE space.
    Democratic development is uneven across the OSCE region. Not all 
elections meet OSCE's standards. Not all officials and government 
institutions operate in an accountable and transparent manner. The next 
few years will see national elections in a number of OSCE States, 
including my own country. The United States continues to welcome ODIHR 
observers and we hope our fellow participating States will do likewise. 
We are pleased that Russia recently has invited ODIHR to conduct a 
needs assessment for an elections observer mission in the lead-up to 
December's parliamentary elections, and we urge Russia to extend a 
formal, unrestricted invitation for this observation mission once the 
assessment is completed. We also look to Russia to invite ODIHR to do 
the same for the presidential elections in 2012. Similarly, we hope 
that ODIHR will be invited to observe the upcoming parliamentary 
elections in Armenia, Georgia, Kazakhstan, Romania, Serbia, and 
Ukraine, and the presidential elections in Albania, Armenia, 
Azerbaijan, Georgia, Kyrgyzstan, Turkey and Turkmenistan.
    Not surprisingly, participating states with serious implementation 
problems do not like to have their records in the spotlight, as we see 
so clearly demonstrated by Belarus's refusal to extend the mandate of 
the OSCE Office in Minsk, its refusal to cooperate with the Moscow 
Mechanism Rapporteur, and now its resistance to joining consensus on 
the detailed agenda for the annual Human Dimension Implementation 
Meeting in Warsaw. The Representative on Freedom of the Media has not 
been allowed to visit Belarus since the crackdown last December. 
Belarus rejected a fact-finding mission by the OSCE Parliamentary 
Assembly Working Group on Belarus and the Working Group's Chair was 
denied a visa to observe trials of political prisoners. Such 
obstructionist behavior only draws more attention to Belarus' 
lamentable human rights record.
    The report of the OSCE's Moscow Mechanism Rapporteur on Belarus 
contains a wealth of constructive recommendations, which we urge 
Belarus to accept so that it can increase its integration into the OSCE 
community, instead of deepening its isolation.With respect to Russia, 
we have spoken out in the OSCE Permanent Council and other OSCE fora 
about the continued assaults on fundamental freedoms of the press and 
assembly, and the rule of law. We repeatedly have expressed our 
concerns about: the many unsolved cases of murdered journalists like 
Paul Klebnikov and human rights activists like Natalia Estemirova; 
corruption and impunity as exemplified by the tragic case of Sergei 
Magnitsky; and restrictions on freedom of assembly for members of 
groups like Strategy 31, the Khimki Forest Defenders, and for members 
of various Lesbian, Gay, Bisexual and Transgender groups. We have 
raised our concerns about Russia's disappointing decision to deny the 
opposition group PARNAS registration so that it can compete in the 
upcoming parliamentary elections and we urge Russian authorities to 
reconsider that decision.
    We continue to monitor and speak out about the treatment of 
minorities in Russia, including the application of the so-called ``law 
on extremism'' to peaceful religious groups. We also are concerned 
about inter-ethnic tensions and incidents of violence between ethnic 
Russians and minority groups, as well as by reports of serious human 
rights violations in the North Caucasus, particularly in Chechnya. 
These reports include disappearances, extrajudicial killings, torture, 
and retribution against those who report abuses.
    Mr. Chairman, as we set our sights on the Ministerial in Vilnius, I 
want to emphasize that our interest in human rights and democratic 
development in Central Asia did not begin or end with the Astana 
Summit. The United States remains committed to working bilaterally and 
within the OSCE with the participating States of Central Asia and with 
civil society in that region to advance domestic democratic reforms, 
respect for human rights and fundamental freedoms, and the rule of law. 
We also will continue to work with Central Asian states to reinforce 
border security to counter transnational threats such as narcotics and 
terrorism, and to bolster security in Afghanistan, an OSCE partner. We 
have stressed that Kazakhstan's legacy as the 2010 Chair of the OSCE 
will be determined by the continued efforts it makes, now that the 
spotlight has left Astana, to deliver on the pledges made there to 
reinvigorate comprehensive security and protect the human rights of 
citizens. We strongly encourage OSCE representatives, as well as high 
public officials from the participating States, including the Members 
of this Commission and Members of the OSCE Parliamentary Assembly, to 
seek opportunities to engage with the governments and citizens of 
Central Asian states to advance Human Dimension issues.
    We have seen that such engagement can yield results. Most recently, 
the Government of Kyrgyzstan decriminalized libel, an issue on which 
the OSCE Representative on Freedom of the Media had persistently 
focused. We applaud Kyrgyzstan's becoming the first Central Asian 
country and the 13th OSCE participating State to decriminalize 
defamation. This measure will strengthen freedom of expression in 
Kyrgyzstan and set an example for the rest of the OSCE community. 
Kyrgyzstan also deserves recognition for its support of the OSCE 
Academy in Bishkek, which operates according to a Memorandum of 
Understanding between the Kyrgyz government and the OSCE. The United 
States joined the Academy's Board of Trustees in March 2011 and since 
its foundation in 2005 we have been strong supporters of the excellent 
work the Academy is doing to provide graduate studies to Central Asian 
and Afghan students. Coupled with the steps Kyrgyzstan has taken to 
ensure inquiry into the abuses committed during the June 2010 conflict, 
we think that the positive trajectory for Kyrgyzstan's democratization 
can continue. The OSCE remains well-poised to assist.
    Mr. Chairman, the comprehensive security we seek in the OSCE 
region, and in Central Asia particularly, will remain elusive until 
serious human rights problems are addressed. We will continue to press 
for the implementation by the Central Asian states of OSCE commitments 
in all three dimensions, and to offer our assistance toward that end.
    For example, Uzbekistan continues to exhibit a poor record on media 
freedom, freedom of religion, and a wide range of human rights and 
fundamental freedoms. We regretted the Uzbekistan Supreme Court 
decision in June to close the Human Rights Watch office in Tashkent. We 
have raised in the OSCE and elsewhere the cases of Dilmurod Sayid, a 
journalist imprisoned for writing about corruption, and Maxim Popov, 
who remains incarcerated for working to decrease the incidence of AIDS 
in the country, and we will continue to advocate for fair treatment and 
due process in those, and similar, cases.
    We also remain deeply concerned over the arrests of religious 
adherents, including Jehovah's Witnesses, Baptists, Protestants and 
members of some Islamic groups in Uzbekistan. Reported raids on the 
homes of members of non-majority religious groups, coupled with bans on 
the import of some religious publications and the confiscation or 
destruction of religious literature, further chill the climate for 
religious expression.
    We will continue to use the OSCE as a platform for pressing these 
and other human rights challenges in Uzbekistan, including ongoing 
reports of torture in detention and the use of child labor in the 
annual cotton harvest.
    Mr. Chairman, looking across the OSCE, community, we see 
intolerance and hate crimes against religious and ethnic minorities, 
including Roma and Sinti. I wish to commend the essential work of 
OSCE's three tolerance representatives: Rabbi Andrew Baker, on 
Combating Anti-Semitism, Dr. Massimo Introvigne, on Combating Racism, 
Xenophobia and Discrimination, also focusing on Intolerance and 
Discrimination against Christians and Members of Other Religions, and 
Ambassador Adil Akhmetiv, on combating Intolerance and Discrimination 
against Muslims. I also salute the efforts of the OSCE's Contact Point 
on Roman and Sinti Issues. Violence against women and assaults on 
individuals because of their sexual orientation or gender identity are 
widespread problems. People with disabilities experience discrimination 
and tend to be relegated to the margins of society. The OSCE region is 
both a source and a destination for human trafficking. Men, women and 
children are forced into servitude within its borders.
    To meet all of these challenges of implementation, participating 
States must strengthen their political will to honor their commitments. 
We and other like-minded governments must work vigilantly to ensure 
that the capacity and integrity of ODIHR, the High Commissioner on 
National Minorities, and other OSCE institutions are strengthened, not 
weakened, and that full use is made of the OSCE's good offices, 
mechanisms, and field missions. Today, for example, the High 
Commissioner is working to prevent ethnic tensions from boiling over 
again in Central Asia and to ensure that children can receive an 
adequate education in their language in Slovakia, Serbia, and other 
parts of Europe. And the field missions are standing up freedom of 
information and human rights ombudsmen who can defend citizens' rights.
    Let me now say a few words about the state of consensus in the OSCE 
and its prospects for meeting today's human, economic, and military 
security challenges. It is evident that some participating States lack 
the political will to meet the commitments they have already made. They 
are often reluctant or unwilling to give their consent so that the OSCE 
can take timely and effective action in key areas of concern, including 
the persistent implementation problems.
    Mr. Chairman, we have encountered such dilemmas before in OSCE's 
history. During the Cold War, Human Dimension commitments made by the 
Soviet Union and Warsaw Pact countries were honored more in the breach 
than in practice. Despite this challenge, the Helsinki process managed 
to advance, thanks to the moral force of Helsinki monitoring groups as 
well as the West's principled, sustained diplomacy. This tenacity 
ultimately paid off with the emergence of the democracies of Central 
and Eastern Europe in the 1990s. And the need for sustained, principled 
efforts by governments and their citizens is equally compelling now.
    Today, we must be steadfast in the face of threats from some 
participating States to withhold consensus or attempt to water down 
commitments or weaken OSCE institutions. We will creatively use the 
full array of existing OSCE authorities, institutions, principles, and 
precedents to support the efforts of today's activists on the ground 
who are pressing for human rights and democratic reforms. Consensus to 
act on issues of human rights and democracy may be hard to reach at the 
State-to-State level, but there is a growing grassroots consensus among 
citizens of the OSCE region and regions across the globe that 
governments must respect human rights and give their people a 
meaningful role in shaping the future of their countries.

The Helsinki Process and Support for Citizen Activism

    President Obama and Secretary Clinton have made support and defense 
of civil society a global foreign policy priority, and we see our work 
in OSCE as integral to that effort.
    OSCE was the first regional organization to recognize the 
importance of civil society and provide for NGO participation in its 
proceedings. Secretary Clinton made a special point of holding a Town 
Hall with civil society groups in Astana during the OSCE Summit, and we 
will continue to encourage and defend NGO involvement at the Human 
Dimension Implementation Meetings and other expert meetings of the 
OSCE.
    Mr. Chairman, the Commission has long championed the vital role 
that non-governmental organizations play in the OSCE process. I am 
pleased to report that my own Bureau and Ambassador Kelly have 
collaborated on a new effort aimed at helping connect civil society 
activists across the OSCE region through new technologies.
    In mid-August, my bureau will be reviewing proposals for a new 
$500,000 program to create a demand-driven virtual network of human 
rights and democracy activists in the OSCE region, which we intend to 
launch in September. We call it Helsinki 2.0. The network would serve 
as a sustainable coordination platform for reinvigorating human rights 
advocacy in Europe and Eurasia. A virtual interface will be created to 
enable activists to have regular engagement with governments beyond the 
traditional appearances at annual OSCE meetings. We hope that this 
Helsinki 2.0 platform will enhance activists' ability to network with 
one another and with the OSCE. This effort should help extend 
Helsinki's Human Dimension and its legacy of citizen advocacy into the 
Digital Age.

Enduring Freedoms, New Apps

    Mr. Chairman, the Commission has greatly helped to elevate the 
issue of Internet freedom. I very much appreciate your holding a 
hearing on the subject a few weeks ago, at which my Deputy, Dan Baer, 
testified. It is vitally important that the OSCE take a principled and 
pioneering stand on Internet freedom.
    In the past, the Helsinki process was a major international 
platform for defending citizens who expressed dissenting views via 
samizdat and for protesting the jamming of radio broadcasts. Two 
decades ago, in response to efforts by the Ceausescu regime to restrict 
citizens' access to Xerox machines, an explicit commitment was included 
in the OSCE's Copenhagen document pledging that ``no limitation will be 
imposed on access to, and use of, means of reproducing documents of any 
kind.'' Today, email, social networking, and text messaging are new 
forms of samizdat and tools of human rights advocacy as well as 
indispensible tools of commerce, education, and global communications.
    We applaud Lithuania for making media freedom via old and new 
technologies and the safety of journalists key themes of its 
Chairmanship. I want to emphasize that cyber issues are relevant to all 
three dimensions of the OSCE. As we partner with other governments, 
civil society, and the business sector on ways we can safeguard against 
very real cyber security threats, we will do so ever mindful that the 
measures we take must be consistent with our human dimension 
commitments to respect the exercise of human rights and fundamental 
freedoms.
    Mr. Chairman, as Assistant Secretary Gordon noted, the United 
States advanced language for inclusion in the Astana Summit Action Plan 
on the exercise of ``Fundamental Freedoms in the Digital Age.'' Since, 
as you know, the Astana Summit ended without the adoption of such a 
plan, we intend to renew our efforts to get this breakthrough language 
adopted at the OSCE Ministerial in Vilnius in December. OSCE's adoption 
of such language would, I believe, mark the first time that any 
regional organization formally recognizes that respect for the full 
range of human rights, and fundamental freedoms must extend to the use 
of new technologies.
    The United States looks forward to working with the Lithuanian 
Chair, the EU, other participating States and civil society to ensure 
that the OSCE sends a strong and clear message from Vilnius on Internet 
Freedom. If I were to distill that message into a tweet to the world, 
it would be: ``Enduring Freedoms, New Apps.''

Promises Made, Promises to be Kept

    Mr. Chairman, when he signed the Helsinki Final Act 36 years ago, 
President Ford famously said, ``History will judge this Conference not 
by what we say here today, but by what we do tomorrow--not by the 
promises we make, but by the promises we keep.'' He was right then, and 
his statement is even more true today.

    Europe cannot be completely whole, free and at peace--
    Europe and Eurasia cannot become truly integrated--
    There can be no lasting security extending from Vancouver to 
Vladivostok--
    until human rights and fundamental freedoms can be fully exercised 
by all people who live within the OSCE community of nations.

    On behalf of President Obama and the American people, I thank the 
Commission for its decades of principled work to ensure that the 
promises made in Helsinki are kept. Now I would be happy to answer your 
questions.

             Prepared Statement of Sec. Alexander Vershbow

Introduction

    I want to thank Chairman Smith and Co-Chairman Cardin for having me 
back to testify about the Organization for Security and Cooperation in 
Europe (OSCE) and our goals in the run-up to the Vilnius Ministerial in 
December. I am particularly proud that you have made me a Commissioner, 
along with my esteemed colleagues here today. I am honored to associate 
myself with this Commission and its myriad achievements over the 
decades.

The OSCE

    The OSCE has three attributes that make it unique. First, it has a 
vast geographic scope, stretching from the Atlantic to the Urals, from 
Vancouver to Vladivostok. This scope allows it to address a diverse set 
of security challenges with a variety of approaches, drawing on its 
extraordinary 56-nation membership.
    Second, the OSCE has a three-basket approach to security--comprised 
of the human dimension, the economic and environmental dimension, and 
of course the 
political-military dimension. This comprehensive approach, enshrined in 
the Helsinki Final Act of 1975, was revolutionary at the time--by 
including dialogue on human rights, democracy, and economic development 
along with military transparency--and is still relevant today.
    Third, the OSCE has an extraordinary and storied history. The 
Conference on Security and Cooperation in Europe--the predecessor to 
the OSCE--played a critical role in providing support and hope to 
persecuted groups behind the Iron Curtain during the Cold War, and 
helped to bring order during Europe's tumultuous political transitions 
of the early 1990s.
    Throughout its history, the OSCE has adapted to new challenges and 
changes in the security environment. In keeping with this tradition, we 
must continue to adapt the OSCE's political-military security toolbox 
to face the challenges of the 21st century.

Astana Summit

    In December of last year, the OSCE held its first Summit since 1999 
in Astana, Kazakhstan. At the Summit, we learned that the achievements 
of the OSCE cannot be taken for granted. The effort to produce an 
action plan for 2011 foundered over fundamental disagreements on the 
security challenges facing the OSCE--especially on conventional arms 
control and the unresolved conflicts in Georgia, Moldova, and Nagomo-
Karabakh. The United States insisted on an action plan that reflected 
our longstanding principles on sovereignty, territorial integrity, and 
host nation consent as it relates to the unresolved conflicts. Russia 
was unwilling to support this, and the resulting impasse threatened the 
Summit outcome.
    Without hope of consensus on an action plan, the U.S. delegation, 
led by my good friend Assistant Secretary of State Phil Gordon, worked 
assiduously to produce the Astana Commemorative Declaration instead. 
The Declaration recommits all 56 participating States of the OSCE ``to 
the vision of a free, democratic, common and indivisible Euro-Atlantic 
and Eurasian security community stretching from Vancouver to 
Vladivostok, rooted in agreed principles, shared commitments and common 
goals.''
    Importantly, the Astana Declaration reaffirmed the right of 
countries to choose their own security arrangements and reasserted that 
no country can create a sphere of influence or seek to strengthen its 
security at the expense of others. The Declaration reiterated the 
importance of arms control and confidence- and security-building 
measures, highlighting their role in ensuring military stability, 
predictability and transparency. It also committed all of us to 
revitalize, modernize, and update the three most important parts of the 
conventional arms control regime--the Vienna Document 1999, the Open 
Skies Treaty, and the Conventional Armed Forces in Europe Treaty.
    I will leave it to my colleagues from State to address the human 
and economic-environmental dimension, and focus instead on what the 
Administration would like to accomplish before the OSCE Ministerial in 
December in the political-military dimension of security.

Conventional Arms Control

    I will address each part of the conventional arms control regime in 
turn, and note that the United States is fully engaged in the process 
of modernizing them, in both Vienna and Washington. Last month, 
Assistant Secretary of State Rose Gottemoeller, assisted by Deputy 
Assistant Secretary Daniel Russell and my Deputy Assistant Secretary, 
Celeste Wallander, attended OSCE's Annual Security Review Conference. 
DASD Wallander represented me in discussions on the Vienna Document 
1999, and it is to that instrument that I turn now.

Vienna Document 1999

    The OSCE can trace its role in arms control to four pages in the 
1975 Helsinki Final Act, which established a confidence-building 
mechanism to reduce the chance of conflicts arising from large military 
maneuvers in Europe. The subsequent talks on military transparency, 
which eventually resulted in the Vienna Document 1999, formed one of 
three pillars of the effort to secure peace in Europe during the Cold 
War. The second pillar was the Mutual Balanced Force Reduction talks, 
focusing on balancing NATO and Warsaw Pact conventional armaments, 
which evolved into the Conventional Armed Forces in Europe Treaty, or 
CFE. The third pillar was the ongoing bilateral U.S.-Russian strategic 
arms limitation talks, which eventually led to the START Treaty.
    The Vienna Document has grown to 60 pages, and comprises a series 
of confidence- and security-building measures designed to increase the 
transparency of military affairs on the territory of all participating 
European and Central Asian States. It includes a conflict-prevention 
mechanism, visits to military air bases, annual exchanges of military 
information, on-site inspections and visits to evaluate the information 
exchanges, and a series of military-to-military contacts. The Vienna 
Document 1999 applies to all military forces in the OSCE zone of 
application.
    The OSCE is engaged in an intensive effort to update the Vienna 
Document for the first time since 1999. With the direction provided by 
our Heads of State in Astana, we are approaching the milestone of 
issuing a new Vienna Document in December in Vilnius. Delegations have 
been working in the OSCE's Forum for Security Cooperation for the past 
year to review the Vienna Document comprehensively and update it to 
meet today's demands. Several proposals already have been adopted, and 
dozens more are under consideration. However, the proposals adopted to 
date have been administrative in nature, and more needs to be done if 
this effort is to be judged a success. One proposal to increase 
military transparency that I would like to highlight would lower the 
thresholds for notification of military manoeuvres--a subject central 
to the intent of the original document. Adopting this proposal made by 
the French delegation would send a clear signal that the OSCE is 
serious about modernizing its approach to military transparency and 
security.
    The dedication all delegations are demonstrating in this effort is 
encouraging; however, much more needs to be done. I believe the United 
States needs to have a deeper discussion with other delegations on the 
future of military transparency and what measures are needed to improve 
the security of all participating States. Our military budgets are all 
under pressure, and many participating States are undergoing rapid and 
radical military transformations. The Vienna Document must continue to 
evolve to keep pace--and the quality of military advice in Vienna must 
be equal to the challenge.

Open Skies

    The Treaty on Open Skies started with an idea by President 
Eisenhower--to reduce the need for destabilizing espionage and 
transform the security environment. The idea was revived in the 1980s, 
and then, in 2002, the Treaty entered into force. To date, the 34 
States Parties have flown more than 700 aerial observation flights, 
providing unprecedented levels of military transparency. The ability of 
any party to overfly every part of the territory of every other party 
from Honolulu to Vladivostok is extraordinary. Indeed, the United 
States and Russia both use the Open Skies Treaty as part of the 
verification of the New START, highlighting the linkages and 
reinforcing effects among these agreements.
    In June 2010, the parties met for their second Review Conference in 
Vienna. There, they recommitted themselves to addressing the challenges 
and guiding the way toward improved transparency. These challenges 
include implementation problems, such as increasing instances of 
interference with the full exercise of Treaty rights; economic issues, 
such as determining the future of aging airframes; and technological 
issues, including adapting to digital technology and fully implementing 
Treaty-allowed sensors. Addressing these challenges will require 
political will and could put strains on increasingly scarce defense 
budgets.
    We are seeking to recommit the United States to the Treaty, both by 
increasing the number of flights we fly and participate in each year, 
and by taking advantage of the ability to upgrade our sensors from film 
to digital capability. According to recent media reports, Russia has 
begun flight-testing a new TU-214 airframe with a full suite of digital 
sensors for use under the Treaty--the same airframe as the forthcoming 
replacement for their equivalent to Air Force One. No other 
participating State has been able to commit to updating its aircraft. 
In fact, some, notably the United Kingdom, have eliminated their 
aircraft due to budgetary pressures.

CFE

    The news on the Conventional Armed Forces in Europe Treaty is less 
encouraging. However, it is worth noting the Treaty's achievements--
including the elimination of more than 72,000 battle tanks, armored 
combat vehicles, artillery pieces, combat aircraft, and attack 
helicopters; the successful completion of thousands of on-site 
inspections; and the orderly, verifiable, and peaceful withdrawal of 
the massed armored forces that typified the Cold War standoff for 
decades. The CFE Treaty succeeded in eliminating the possibility of 
large-scale, surprise attack in Central Europe; it has been at an 
impasse with Russia's ``suspension'' of implementation of CFE in 
December 2007, which was further complicated by Russia's 2008 invasion 
of Georgia.
    The State Department named Ambassador Victoria Nuland as Special 
Envoy to engage in modernizing CFE in February 2010. She consulted 
closely with our NATO Allies to launch an effort to reach agreement 
among the 30 CFE Parties, joined by the six NATO members that are not 
signatories of the CFE Treaty (Estonia, Latvia, Lithuania, Albania, 
Croatia, and Slovenia), on a framework agreement based on three of 
President Obama's five principles of European security: 1) reciprocal 
transparency of conventional armed forces; 2) reciprocal restraints on 
concentrations of heavy forces and permanent basing in sensitive 
regions; and 3) a renewed insistence on host-nation consent for the 
stationing of foreign forces on sovereign territory.
    Since June 2010, the United States and our Allies have been engaged 
in an intensive effort to reach agreement on a framework for 
negotiations to strengthen and modernize conventional arms control in 
Europe. However, after ten rounds of consultations in Vienna, Russia 
remains inflexible on two key issues: host-nation consent for the 
stationing of foreign troops on sovereign territory, and providing 
appropriate transparency among all parties regarding their current 
military posture for the period of any negotiation. Currently, the 
United States is consulting with Allies to decide the way forward, 
while continuing to encourage Moscow to reconsider its position. If 
Russia will not reconsider, we must look carefully at our options 
regarding the current unequal situation, whereby 29 Parties implement 
the Treaty and one does not. As the NATO communique issued at the 
Lisbon Summit warned, this situation cannot continue indefinitely.
    While the future of CFE remains uncertain and the Treaty cannot be 
replaced by the Vienna Document, we remain committed to conventional 
arms control and military transparency in Europe. We will continue to 
work through the OSCE to advance these objectives through modernizing 
the Vienna Document and the Open Skies Treaty.
    Outside of the OSCE, we are working both bilaterally with Russia 
and through the NATO-Russia Council to address concerns about missile 
defense and strategic stability. At the same time, through the Forum 
for Security Cooperation, we are seeking to address modern threats, 
such as transnational crime, nuclear proliferation, Central Asian 
instability, and unsecured, unsafe stocks of small arms and light 
weapons. Finally, we are using every opportunity possible, including 
the OSCE, to address the unresolved conflicts that have contributed to 
the stalemate on modernizing of the CFE.

The Unresolved Conflicts

    The OSCE continues to play a critical role as a central forum for 
addressing the unresolved conflicts which emerged at the end of the 
Cold War in Georgia, Moldova, and Nagorno-Karabakh. As the 2008 war in 
Georgia showed, these conflicts hold the devastating potential to 
destabilize security in the OSCE region, and their resolution must 
remain a high priority for the OSCE and all its member states. The 
United States seeks to use the leverage of the OSCE's diverse 
membership to address these unresolved conflicts, and, through 
cooperative efforts, resolve them. While each of the conflict 
resolution processes has faced myriad difficulties this year, I still 
hold out hope that with the help of our Lithuanian Chairman-in-Office, 
we can show progress by Vilnius.

Georgia

    We have seen few signs toward progress on resolving the conflict 
between Georgia and Russia. First and foremost, the OSCE has not been 
able to resume its presence on both sides of the administrative 
boundaries in Georgia. Talks continue in Vienna and Geneva on the 
possibility that an OSCE team, based in Vienna, will be given access to 
all of the territory of Georgia within its internationally-recognized 
borders. This would be a significant step forward, but Russia and 
Georgia have yet to agree on the conditions for bringing such a team 
into existence.
    As the Co-Chairs of this Committee noted after the 2008 
hostilities, Russia's invasion of Georgia represented ``a clear 
violation of Georgia's territorial integrity and Principle Four of the 
Helsinki Final Act.'' The expiration of the OSCE mandate in Georgia at 
the end of 2009 was regrettable. Our position remains unchanged: the 
U.S. continues to advocate for allowing humanitarian assistance, as 
well as a return to pre-conflict positions, as Russia committed to 
doing as part of the August 8, 2008 ceasefire agreement. The U.S. 
continues to support Georgia's territorial integrity and sovereignty 
within its internationally recognized borders, and we will maintain our 
support for international efforts to find a peaceful resolution to the 
dispute over Abkhazia and South Ossetia. Russia needs to abide by its 
ceasefire arrangements and take steps that promote stability in the 
region. We reaffirm this message regularly to our Russian counterparts.

Moldova

    The OSCE (then the CSCE) became involved in peacekeeping in Moldova 
in 1993, and continues to play an important role in supporting a 
peaceful resolution of the dispute over Transnistria through the 5+2 
talks. These talks comprise Moldova, Transnistria, Russia, Ukraine and 
the OSCE, plus the U.S. and the EU as observers. The United States 
continues to press for a resumption of formal 5+2 negotiations to make 
progress toward a settlement that will end this conflict based on 
Moldova's sovereignty and territorial integrity. Informal 5+2 talks in 
February discussed freedom of movement between the sides, the 
negotiating process, and a work plan for 2011--but showed limited 
results. President Medvedev hosted another informal 5+2 meeting in June 
in Moscow, but was unable to reach agreement on holding a formal 
meeting in September. Even without formal 5+2 negotiations, we 
encourage the parties to continue to pursue confidence-building 
measures, such as those to facilitate commerce within the existing 
customs process and to otherwise work to improve the daily lives of 
citizens on both sides of the Dniester River.
    In addition, the OSCE stands ready to support the completion of the 
removal of the estimated 20,000 tons of ex-Soviet arms and ammunition 
left on Moldovan territory, in Cobnasa, as well as any remaining 
equipment. The OSCE began assisting Russia and Moldova in removal and 
destruction of equipment, arms, and ammunition in 1999, but Russia 
stopped this effort in March 2004. The OSCE has allocated both money 
and manpower ready to facilitate the completion of Russia's obligation 
to complete this effort.

Nagorno-Karabakh

    The United States remains closely engaged with our OSCE Minsk Group 
co-chairs--Russia and France--in supporting efforts to bring a peaceful 
settlement between Armenia and Azerbaijan over the Nagomo-Karabakh 
conflict. Presidents Obama, Medvedev, and Sarkozy in a joint statement 
at the G-8 Summit in Deauville in May noted ``the time has arrived'' to 
move beyond the ``unacceptable status quo'' and called for a ``decisive 
step toward a peaceful settlement.'' Specifically, the three presidents 
urged the Presidents of Armenia and Azerbaijan to finalize the Basic 
Principles, which will provide the formula for a future comprehensive 
settlement. If we reach agreement on the Basic Principles, the United 
States will work diligently with its partners, including the EU and the 
OSCE, to take the next steps toward implementing an eventual peaceful 
settlement to this terrible conflict.
    Unfortunately, there has been a step backward in this effort. I am 
sad to report that the attempt to reach a breakthrough in Kazan, Russia 
on June 24 failed, while tensions along the Line of Contact are 
increasing. Armenia and Azerbaijan remain unable to fmalize the Basic 
Principles, and we remain at an unhelpful and dangerous stalemate. 
President Medvedev has put forward another proposal to break the 
stalemate, but the prospects for progress are uncertain.

New and Emerging Threats

    Part of the rich history of the OSCE, and a source of its strength, 
has been the adaptability of the institution to face new and emerging 
threats. No one in 1975 could have imagined that cybersecurity would be 
a topic of discussion among states. In addition, the specter of nuclear 
proliferation to non-state actors, the control of small arms and light 
weapons, and border security in Central Asia all have become issues 
that concern all participating States. Fortunately, the OSCE provides 
ample flexibility to address new threats as they arise.

UN Security Council Resolution 1540

    UN Security Council Resolution 1540 was adopted in April 2004 to 
facilitate an effective global response to WMD proliferation threats by 
committing states to improve their domestic controls and prevent non-
state actors from acquiring or developing WMD and their means of 
delivery. As the world's largest regional security organization, the 
OSCE plays an important role in the full implementation of UNSCR 1540 
through effective norm-setting and providing leadership that other 
regional groupings with less developed structures are looking to 
follow.
    The United Nations Committee overseeing implementation has welcomed 
the OSCE's efforts to implement UNSCR 1540, praising its ability to 
leverage and empower regional approaches and understandings. In January 
2011, the OSCE hosted a workshop specifically to define the 
Organization's role in facilitating UN Security Council Resolution 
1540. It brought together policymakers and experts from around the 
world, reviewing progress in the implementation of UNSCR 1540, the 
facilitation role appropriate for regional organizations and the UN, 
best practices, lessons learned, and the utility of border controls and 
end-use monitoring.
    The OSCE 1540 workshop demonstrated the Organization's critical 
role in bringing together national, international, and non-governmental 
organizations to stop the spread of WMD, and the results are leading to 
further cooperation. The United States, with support from other 
delegations, is pressing for the development of such OSCE tools as a 
best-practices guide for UNSCR 1540 implementation for OSCE 
participating States, integration of the 1540 Adviser who started 
working in 2010 at the Secretariat level, national action plans, and 
making use of OSCE institutions such as the Dushanbe Border Management 
College.

Small Arms and Light Weapons

    The OSCE continues to provide a vital forum for Euro-Atlantic 
cooperation on the reduction of threats posed by the illicit transfer 
of small arms and light weapons and their possession by subnational 
groups. Beginning with the adoption of the OSCE Document on Small Arms 
and Light Weapons in 1999, the OSCE has fostered cooperation among 
participating States in reducing trafficking, securing existing stocks, 
and eliminating excess small arms and light weapons and related 
materials.
    In March 2011, DoD participated in an OSCE-led assessment of 
ammunition storage, destruction, and related infrastructure in 
Kyrgyzstan. During this visit, DoD discovered poorly secured man-
portable air defense systems MANP ADS and large stockpiles of obsolete 
and hazardous conventional ammunition. As a result the United States 
has offered funding for physical security upgrades and MANP ADS 
destruction there. DoD will participate in an OSCE follow-up visit in 
July to assess the possibility of an OSCE-funded storage and security 
improvement program at seven ammunition and small arms and light 
weapons depots.

Cyber Security

    Next, I would like to address the role of the OSCE in cyber 
security. Information technologies are vital not only to the global 
economy but to our national security. There is no exaggerating DoD's 
dependence on information networks and systems for the command and 
control of our forces, intelligence and logistics, and weapons 
technologies. As malicious cyber activities increase in their scope and 
sophistication, international concern has increased.
    In May, the OSCE hosted a conference on cyber security to explore 
potential roles for the organization. The conference was broadly 
attended, with participants from the participating States, partners, 
and international organizations, including Japan, the European 
Commission, and NATO. At the conference, the United States suggested 
that the OSCE promote confidence-building mechanisms within the 
political-military dimension of security to address cyber threats. In 
the run-up to the Vilnius Ministerial, DoD will continue to support 
State Department-led discussions on such mechanisms to protect our 
vital interests.

Border Security in Central Asia

    The United States has been working to promote a stable, secure, and 
prosperous Central Asia since the break-up of the Soviet Union. At the 
OSCE Summit in Astana, all participants renewed their commitments 
across all three dimensions, as well as to continue their efforts to 
promote a stable, independent, prosperous, and democratic Afghanistan. 
We can achieve this by improving border security and working to combat 
drug trafficking and other forms of proliferation across Central Asia.
    One area where the United States certainly hopes the OSCE will do 
more is with Afghanistan. The Government of Afghanistan, an OSCE 
Partner Country made an urgent request for support in 2007. Responding 
to this request, the OSCE Secretariat proposed sixteen separate 
projects to enhance Afghan border security, including an emphasis on 
building Afghan capacity. These projects are designed to support the 
Afghanistan National Development Strategy in close coordination with 
the Government of Afghanistan. We would like to see more progress in 
these projects.

Conclusion

    In 1970, if you addressed a group of NATO or Warsaw Pact military 
planners and told them that they would, within their lifetimes, hand 
each other their order of battle, publish advance warning of large 
military exercises, invite the other side to observe the largest of 
these exercises, conduct thousands of intrusive inspections, and fly 
hundreds of uncontested reconnaissance sorties over each others' 
territory, they would have responded with disbelief. Now, we take these 
measures for granted.
    The Helsinki Process, initiated in 1973, and aided by this 
Commission, remains an important tool to remind people that this effort 
is still underway, and still necessary to prevent future conflicts, 
resolve the remaining conflicts in Eurasia, and address new threats as 
they emerge.
    I had hoped that by 2011 we would be looking forward to projecting 
the peace and security of the OSCE area to other areas of instability 
that the OSCE area would be serving as a beacon and a guide to the rest 
of the world. Instead, we have much work to do to fulfill our original 
promise of a Europe whole, free and secure. As well as engaging in the 
hard work of creating the conditions necessary for advancement and 
growth in Central Asia.
    I hope that, in the future, the OSCE's Astana Summit will be seen a 
turning point, where the participating States truly and fully 
recommitted themselves to reinvigorate the OSCE and move boldly into 
the 21st century. I think we see some positive signs as we advance 
toward our next milestone, the Vilnius Ministerial. Time will tell, and 
with your help, we will succeed.

             Prepared Statement of Dr. Michael Haltzel \1\
---------------------------------------------------------------------------

    \1\ Dr. Michael Haltzel is Senior Fellow at the Center for 
Transatlantic Relations at the Johns Hopkins University School of 
Advanced International Studies (SAIS) and Senior Advisor at the 
consulting firm McLarty Associates. He was Head of the U.S. Delegations 
to recent OSCE conferences in Warsaw, Copenhagen, and Vienna.
---------------------------------------------------------------------------
    Thank you, Mr. Chairman. It is an honor and a pleasure to 
participate in today's hearing. I would like to take this opportunity 
to commend you, Mr. Chairman, and Co-Chairman Senator Cardin, for your 
energetic leadership of the U.S. Commission on Security and Cooperation 
in Europe. In a policy world where coping with daily crises makes it 
easy not to see the forest for the trees, the Helsinki Commission 
stands out for its ability to examine both current problems and their 
deeper causes. Having two prestigious figures at the helm of the 
Commission, greatly enhances its credibility and the impact of its 
findings.
    I would also mention the ``foot soldiers'' of our OSCE policy. 
During the past two years I have had the honor of being head of three 
U.S. delegations to OSCE conferences: the 2009 Human Dimension 
Implementation Meeting in Warsaw, the 2010 Copenhagen 20th Anniversary 
Conference, and the 2010 Vienna Review Conference. I have never 
encountered a more expert, hard-working, and effective group of public 
servants than the members of those three delegations and the officials 
backing them up in Washington, D.C. They included staff of the Helsinki 
Commission, career Foreign Service Officers, and State Department civil 
servants, plus a few public members with specialized professional 
backgrounds. Several of them are in this room today. The American 
people are being extraordinarily well served by, and should be proud 
of, these U.S. federal employees.
    Mr. Chairman, when one views the Helsinki Process over the nearly 
four decades of its existence, one must, I believe, judge it to have 
been a resounding success. The CSCE (Conference on Security and 
Cooperation in Europe) played a significant role in hastening the 
demise of communism in Europe, the Caucasus, and Central Asia. Although 
Europe has not yet completely achieved the lofty goal of being ``whole, 
free, and at peace,'' the territory of the OSCE is unquestionably in 
much better shape than it was when the founders began their 
deliberations in the Finnish capital in the early 1970s. In Europe, 
only one dictator remains--Aleksandr Lukashenka in Belarus--while in 
Central Asia and the Caucasus a half-dozen other OSCE participating 
States have governments that are not democracies. Compared with the old 
Soviet Union and its communist satellites, though, the situation has 
markedly improved.
    That's the relatively good news. The bad news is that since its 
high-point in 1990 at the Copenhagen Conference on the Human Dimension, 
which wrote what is still the most comprehensive document on human 
rights, the organization (as of January 1, 1995 called the OSCE) has 
been in many respects a disappointment. For reasons that I will outline 
shortly, I would not call it a failure. But as I recently stated in an 
op-ed jointly written with former U.S. Ambassador William Courtney and 
former EU Ambassador Denis Corboy, \2\ the OSCE, with 56 participating 
States the world's largest regional security organization, is in 
crisis.
---------------------------------------------------------------------------
    \2\  ``Punching above our weight to lead top regional security 
organisation,'' The Irish Times, June 10, 2011.
---------------------------------------------------------------------------
    To be sure, the OSCE faces a formidable array of challenges. 
Uzbekistan has never come to terms with the massacre of hundreds of 
protestors in Andijon in 2005. The new, democratic government in 
neighboring Kyrgyzstan is struggling with the aftermath of a violent, 
repressive leader who fled last year. Insurgencies are spreading in 
Russia's largely Muslim north Caucasus, while Moscow has farmed out 
control of Chechnya to a brutal warlord.
    Meanwhile, Russia's military continues illegally to occupy parts of 
Georgia and Moldova. Talks on ``frozen'' or ``protracted'' conflicts in 
Transnistria, Abkhazia, South Ossetia, and Nagorno-Karabakh are 
stalled, with only occasional, tantalizing indications of positive 
movement.
    What has the OSCE been able to do to remedy these problems? 
Unfortunately, other than offering rhetorical balm, not much. At last 
December's first-in-a-decade OSCE summit in Astana, Kazakhstan the 
participating States, with strong leadership from Assistant Secretary 
Gordon, did formally reaffirm the organization's lofty principles. In a 
healthy organization, however, I submit that this reaffirmation would 
have been considered unnecessary.
    Considerably more important was the fact that the participating 
States were unable to agree upon an Action Plan for the OSCE.
    Mr. Chairman, the United States gave fair warning that we would not 
accept a vague, toothless Action Plan. In my statement to the Closing 
Plenary Session of the Vienna Review Conference on October 26, 2010, I 
outlined nine specific goals and implementation measures for the Astana 
Summit, which, if not accepted would make the United States hard 
pressed to accept an Action Plan. \3\ I am gratified that at Astana the 
United States stuck to its principles, which are fully consonant with 
those of the OSCE. Not so with several other participating States.
---------------------------------------------------------------------------
    \3\  http://photos.state.gov/libraries/adana/5/ViennaRevCon/
ClosingPlenary--10-26-10.pdf
---------------------------------------------------------------------------
    For example, take the paucity of concrete, remedial OSCE actions, 
which is cause for great concern. The OSCE's consensus rule has become 
an increasing burden. Only once has a participating State been 
suspended, the Federal Republic of Yugoslavia (Serbia and Montenegro) 
in 1992. Uzbekistan should have been suspended after the Andijon 
massacre six years ago. The government of Belarus violently suppressed 
peaceful protests against the rigged election of December 2010 and has 
imprisoned leading opposition figures. Since April of this year Minsk 
has been under investigation by a mission of independent experts under 
the OSCE's Moscow Mechanism, which does not require consensus to be 
activated but which itself can be compromised by the participating 
State under investigation. The Lukashenka regime surely deserves 
suspension, but I am doubtful that it will be so penalized. I hope I 
will be proved to be unduly pessimistic.
    Non-democratic members, Russia above all, continually stymie 
organizational progress. Moscow has vetoed carefully crafted U.S. 
crisis-response proposals, preventive action in the north Caucasus, and 
aid in Afghanistan, adjacent to OSCE territory in Central Asia.
    The lack of an enforcement mechanism is also a fundamental weakness 
of the OSCE. The public ``naming and shaming'' of human rights 
violators at the HDIM drives non-democratic participating States up the 
wall and occasionally improves the conditions of imprisoned civil 
rights advocates, but it rarely alters general governmental behavior.
    In the face of constant stonewalling, a few segments of the OSCE 
manage to carry out their mandates with distinction. The OSCE 
Representative on Freedom of the Media Dunja Mijatovic of Bosnia and 
Herzegovina, who testified before this Commission two weeks ago, is 
fearless in her speaking truth to power. The Office for Democratic 
Institutions and Human Rights (ODIHR), based in Warsaw and headed by 
the Slovenian diplomat Janez Lenarcic, draws high marks for its work in 
election observation, democratic development, human rights, tolerance 
and non-discrimination, and rule of law. The OSCE High Commissioner on 
National Minorities former Norwegian Foreign Minister Knut Vollebaek 
commands universal respect for his efforts. The OSCE Parliamentary 
Assembly plays an important role, although its relationship with the 
Permanent Council needs improvement. Last but not least, the OSCE runs 
valuable field missions and training programs in several troubled 
areas.
    The OSCE also has a key mandate in arms control. Assistant 
Secretary Vershbow undoubtedly will go into the details, so I will only 
touch on one important facet: the Adapted Conventional Armed Forces in 
Europe Treaty (CFE), which was signed by 30 states-parties at the 1999 
Istanbul OSCE Summit and has been ratified by Russia, Ukraine, Belarus, 
and Kazakhstan. NATO members have refused to ratify the accord until 
Russia complies with the commitments it made in Istanbul twelve years 
ago to withdraw its forces from Georgia and Moldova. Last year the 
United States undertook an intensive, good-faith effort to negotiate a 
Framework Agreement on the Adapted CFE but has failed to date, largely 
because Moscow refuses to accept the principle of "host nation consent" 
and adequate transparency.
    So we have an organization whose effectiveness varies widely. As a 
norm-setter, the OSCE has few, if any, equals. Its specialized agencies 
and field missions remain valuable international players. But in 
enforcing its democratic and human rights principles and in arms 
control the OSCE has proved to be a huge disappointment. The 
organization remains important and is an integral tool of U.S. 
diplomacy, but even its strongest proponents--and I count myself in 
that group--must admit that it has been on a downward slide over the 
last decade.
    What, then, should U.S. policy toward the OSCE be?
    Mr. Chairman, frustrating though it may be to some, I would argue 
for ``more, not less'' commitment to the organization. Abandoning or 
reducing our participation in the OSCE is simply not an option. We 
should redouble our commitment, both in personnel and in behavior. The 
United States should be the most activist OSCE participating State.
    That means sending our best and our brightest, like our current 
Ambassador Ian Kelly and his new DCM Ambassador Gary Robbins, to 
represent the U.S. at the OSCE Permanent Council in Vienna. It means 
backing up the Permanent Representative with an outstanding staff, both 
on site and at the Helsinki Commission and at the State Department in 
Washington. A prerequisite for these steps, of course, is adequate 
Congressional funding.
    In terms of behavior within the OSCE, the United States should be 
second to none in its engagement, both positively and negatively. At 
the December 2011 OSCE Ministerial in Vilnius, we should continue to 
push our constructive initiatives--such as more effective crisis-
response mechanisms, updating the Vienna Document on arms control, 
formalizing internet freedom, codifying gender equality, and demanding 
more economic transparency--even if many or all of these initiatives 
will most likely be vetoed by Russia or others. Demonstrating that the 
U.S. is a good international citizen and a dedicated OSCE member has 
intrinsic value that should not be underestimated.
    At the HDIM, the United States should continue its leadership, 
including the ``naming and shaming'' that is called for in an 
implementation meeting. In that vein, we should always be candid about 
our own national shortcomings. My experience at the Warsaw HDIM two 
years ago was that by publicly owning up to our deficiencies and then 
explaining the measures we are taking to rectify them we increase our 
credibility, especially among the European participating States.
    The United States should always be the foremost champion of non-
governmental organizations and their right to participate in OSCE 
conferences. Whatever the occasional rhetorical excesses of some NGO 
representatives, these organizations infuse a breath of fresh air into 
OSCE proceedings and provide an essential link to the citizenries of 
participating States, especially non-democratic countries.
    In negotiations over all manner of OSCE documents--from routine 
announcements to treaties--the United States should be the 
quintessential ``paragraph experts,'' even at the risk of being labeled 
``nit-pickers.'' I would prefer to describe it by the somewhat 
inelegant German term of possessing Sitzfleisch, meaning being 
assiduous. We should be diligent, careful to a fault, and tireless. 
Earning the reputation as the last delegation to leave a negotiation 
strengthens our hand in the future.
    Finally, Mr. Chairman, the United States should never ``go along to 
get along.'' On the vast majority of issues confronting the OSCE, we 
are in agreement with our European friends and allies. Occasionally, 
however, if they are willing--allegedly ``for the good of the 
organization''--to acquiesce in resolutions or draft agreements that we 
feel would jeopardize our national interest or compromise the 
principles of the OSCE, we must resist group pressure to provide 
consensus. No matter how much eye-rolling it may occasion, our being a 
minority of one in such rare cases is not only ethically sound, but 
also organizationally the most supportive position.
    Mr. Chairman, this concludes my testimony. I thank you, again, for 
the opportunity to offer my views, and I look forward to attempting to 
answer any questions Members may wish to pose.

                                 <all>




                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
